<html>
<title> - DOMESTIC PREPAREDNESS AGAINST TERRORISM: HOW READY ARE WE?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





       DOMESTIC PREPAREDNESS AGAINST TERRORISM: HOW READY ARE WE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2000

                               __________

                           Serial No. 106-175

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-547                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2000...................................     1
Statement of:
    Baughman, Bruce, Director, Operations and Planning Division, 
      Response and Recovery Directorate, FEMA....................    98
    Burnham, Robert, Section Chief, FBI Domestic Terrorism/
      Counter-Terrorism Planning Section.........................   107
    Cugno, General William, adjutant general, Connecticut 
      National Guard.............................................    59
    DeLauro, Hon. Rosa, a Representative in Congress from the 
      State of Connecticut.......................................     8
    Garcia, Dr. Joxel, commissioner, Department of Public Health.    74
    Gecewicz, Thomas E., director of public health, city of 
      Bridgeport.................................................    31
    Halaby, Kenneth, first selectman, town of Trumbull...........    18
    Lawlor, Brigadier General Bruce, U.S. Army Commander.........   120
    Lee, Dr. Henry C., commissioner, Department of Public Safety.    66
    Maglione, Michael, fire chief, city of Bridgeport............    23
    Moore, Gary, Director, Division of Emergency Readiness and 
      Operations.................................................   131
    Murphy, Dennis, chief administrative officer, city of 
      Bridgeport.................................................    19
    Rocque, Arthur, Jr., commissioner, Department of 
      Environmental Protection...................................    85
    Sandford, Wayne, Connecticut representative, New England Fire 
      Chiefs.....................................................    89
    Stroech, Kenneth, Deputy Emergency Coordinator, Chemical 
      Emergency Preparedness & Prevention Office, U.S. 
      Environmental Protection Agency............................   140
    Torres, Hector, police chief, city of Bridgeport.............    20
    Wiltse, John T., director, Connecticut Office of Emergency 
      Management.................................................    10
Letters, statements, etc., submitted for the record by:
    Baughman, Bruce, Director, Operations and Planning Division, 
      Response and Recovery Directorate, FEMA, prepared statement 
      of.........................................................   101
    Burnham, Robert, Section Chief, FBI Domestic Terrorism/
      Counter-Terrorism Planning Section, prepared statement of..   110
    Cugno, General William, adjutant general, Connecticut 
      National Guard, prepared statement of......................    62
    Garcia, Dr. Joxel, commissioner, Department of Public Health, 
      prepared statement of......................................    76
    Gecewicz, Thomas E., director of public health, city of 
      Bridgeport, prepared statement of..........................    33
    Lawlor, Brigadier General Bruce, U.S. Army Commander, 
      prepared statement of......................................   123
    Lee, Dr. Henry C., commissioner, Department of Public Safety, 
      prepared statement of......................................    68
    Maglione, Michael, fire chief, city of Bridgeport, prepared 
      statement of...............................................    25
    Moore, Gary, Director, Division of Emergency Readiness and 
      Operations, prepared statement of..........................   133
    Rocque, Arthur, Jr., commissioner, Department of 
      Environmental Protection, prepared statement of............    86
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Stroech, Kenneth, Deputy Emergency Coordinator, Chemical 
      Emergency Preparedness & Prevention Office, U.S. 
      Environmental Protection Agency, prepared statement of.....   143
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     6
    Torres, Hector, police chief, city of Bridgeport, prepared 
      statement of...............................................    22
    Wiltse, John T., director, Connecticut Office of Emergency 
      Management, prepared statement of..........................    12

 
       DOMESTIC PREPAREDNESS AGAINST TERRORISM: HOW READY ARE WE?

                              ----------                              


                         MONDAY, MARCH 27, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                     Stratford, CT.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
the Stratford Armory, 63 Armory Road, Stratford, CT, Hon. 
Christopher Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Tierney.
    Also present: Representative DeLauro.
    Staff present: Lawrence Halloran, staff director and 
counsel; Vincent Chase, chief investigator; Robert Newman, 
professional staff member; Jason Chung, clerk; and David 
Rapallo, minority counsel.
    Mr. Shays. I'd like to call this hearing to order and 
welcome our witnesses and our guests. Our collective duty to 
protect public safety and national security demands we ask 
``How ready are we to confront the changing face of modern 
terrorism?'' The answer, we are more prepared today than 
yesterday, thanks, in part, to the skill and dedication of the 
witnesses we will hear this morning.
    But terrorism challenges rational people to come to grips 
with irrational, to think about the unthinkable. And it compels 
local, State and national leaders to commit to and rely upon 
unprecedented levels of mutual assistance and cooperation in 
the event of a terrorist incident. These are challenges we are 
not yet fully prepared to meet.
    Last Friday's exercise brought that lesson home as local 
police, fire and emergency medical personnel worked through a 
fictional, but all too plausible, scenario of a chemical-laced 
pipe bomb explosion on an Amtrak train. They learned what types 
of equipment, training and planning are needed to improve 
existing response capabilities.
    At the same time, we all learned a sobering truth. Without 
the proper local preparations and outside support, first 
responders to a chemical or a biological incident scene 
inevitably become the second wave of victims.
    Facing that harsh reality, mayors, Governors, Congress and 
the President are asking the same questions. What do local 
responders need to function and survive as our first line of 
defense against terrorism? What additional capabilities should 
reside at the State and national levels to be brought to bear 
in support of local officials when needed?
    Answers required close calibration of local, State and 
Federal interests and authority. It is a difficult and 
potentially costly balance to strike. But, given that time and 
distance between a terrorist attack and effective response are 
measured in human lives, the balance must be found and funded.
    Since 1997, the Federal Government has spent several 
billion dollars on domestic preparedness programs. Last year, 
the congressional mandated Advisory Panel to Assess Domestic 
Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction reported frustration and confusion among local and 
State officials trying to navigate a busy bureaucratic menu of 
Federal counter-terrorism agencies and programs. The Advisory 
Panel also observed a lack of consensus on the nature and 
extent of the domestic terrorism threat, compounding the 
difficulty of needs assessments and budget planning.
    Today, the subcommittee came to Connecticut to assess the 
impact of Federal programs to combat terrorism and to ask what 
needs to be done to improve their focus, their reach and their 
effectiveness.
    Thanks to the efforts of the Connecticut Office of 
Emergency Management, the Connecticut Military Department and 
the city of Bridgeport in planning and conducting last Friday's 
exercise, and I might say funding it as well, witnesses this 
morning are able to address our questions with recent 
experiences and fresh insights. The subcommittee is grateful 
for the time and expertise our witnesses bring to these 
important discussions and we look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.001
    
    [GRAPHIC] [TIFF OMITTED] T8547.002
    
    Mr. Shays. At this time, I'd like to call on my colleague, 
Mr. Tierney, if he'd like to make a statement.
    Mr. Tierney. Thank you. Thank you, Mr. Chairman. And good 
morning, everyone. Let me also welcome all of the witnesses 
that are here this morning, as well as the local, State and 
Federal officials who took part in the exercise on Friday, 
which I understand was quite an event. I'm glad you could all 
be with us.
    I also want to thank the Connecticut National Guard for 
organizing the exercise and hosting the hearing today here at 
the Armory. We're scheduled to have another hearing up in my 
district probably next month and I hope we can offer as much 
hospitality and do as good a job up there as you've done for 
us.
    Terrorism is obviously a concern for all of our cities and 
towns because it will require a response by local resources 
first. Police departments, fire departments, hospitals, all of 
these local entities will be called upon to respond. And we 
have to make sure that we have quick and effective response.
    In the case of a potentially catastrophic event, however, 
there are additional concerns that must be addressed. First, 
how well are we training and equipping ourselves for a future 
incident? And, second, if an incident occurs, have we thought 
through the processes and procedures of actions so we know how 
to respond?
    On the first question, preparation for this kind of 
incident requires us to examine the possible threats, determine 
the risk of various scenarios and transform that threat/risk 
assessment into concrete priorities for equipment, training and 
research.
    On the second question, a procedure for action requires 
that we know who to call, when to call them and what to ask for 
when we reach them.
    With both of these efforts, there are many unknowns and 
unquantifiables. There are also uncertainties about the extent 
to which Federal funding should be directed toward enhancing 
local capabilities, preparing Federal response mechanisms or 
some combination of both.
    I hope when we return to Washington, Mr. Chairman, that 
we'll have some clear ideas about this situation on our own.
    And finally, I want to thank Chairman Shays for his 
dedication and perseverance on this issue. I have to tell you 
he's held five hearings like this, I believe, last year on the 
topic and I think he's had three so far this year. He's 
demonstrated his commitment to streamlining Federal programs so 
they'll be much more coordinated, more efficient and ultimately 
more helpful to the local responders who rely on them.
    And I look forward to the hearing this morning. I just also 
want to close by noting the number of National Guardsmen from 
Massachusetts that are here, Mr. Chairman, and know that they 
are lending their expertise to the situation. We're proud and 
thoughtful to have them here.
    Thank you.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.003
    
    [GRAPHIC] [TIFF OMITTED] T8547.004
    
    Mr. Shays. I'd like to thank my colleague as well for his 
incredible support in this committee. It's really a team 
effort. And the record will note that Massachusetts is very 
important to Connecticut.
    Now I'd like to call on my colleague, Rosa DeLauro, a 
partner and wonderful friend in so many efforts in Congress. 
And we are in your district and it's wonderful to be here.

 STATEMENT OF HON. ROSA DeLAURO, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mrs. DeLauro. Thanks so much. I, too, want to welcome 
everyone here today. And I thank my colleague, Congressman 
Shays, for holding this important hearing and associate myself 
with my comments--with the comments of my colleague from 
Massachusetts, John Tierney, in mentioning Congressman Shays' 
tenacity and doggedness and commitment to this issue.
    Let me also welcome Congressman Tierney to Stratford and to 
the Third Congressional District of Connecticut. We're grateful 
for the assistance of our Massachusetts brethren. And we're 
going to do all that we can to get one of these teams in the 
State of Connecticut here, John.
    Let me thank the members of the panel who are here with us 
today and for your expert testimony. Also, to all the personnel 
here this morning who took us through the various kinds of 
efforts that you are making and the description of the 
equipment that you're using and helping us to try to understand 
exactly what happens here on the ground.
    We are approaching the 5-year anniversary of the bombing of 
the Alfred Murrah Federal Building in Oklahoma City. We passed 
the 7-year mark of the attack on the World Trade Center. I dare 
say that these tragedies have served as a wake-up call to all 
Americans that terrorism was no longer just in other countries 
and far-off places like the Middle East or Northern Ireland, 
that we also have terrorism here. We've learned that it's not 
only bred abroad but can develop right here at home.
    And no one wants to over-excite or to frighten the public 
with concerns about attacks on their workplaces or homes. We 
don't want to give terrorists a victory of greatly altering our 
lives by causing us to live in fear. But we need to be 
prepared. But the vigilance doesn't mean that we shutter our 
windows against the outside world. What we're looking at is a 
prudent and an intelligent approach.
    From threats from abroad, we must remain steeled against 
those who wish us ill, prepared to meet in force in kind. And, 
similarly, we need to recognize and monitor domestic threats. 
But keeping in mind that every act cannot be foreseen and 
prevented, we need to prepare and to ensure that the men and 
women who would be the first on the scene are equipped with 
every tool that they need and expertly trained in how to be 
able to use them.
    We've had some foresight of good Senators, Sam Nunn, 
Richard Lugar, in helping to try to provide some resources to 
be able to bear on the enhanced capability of Federal, State 
and local emergency responses in the case of terrorist 
incidents.
    With a $10 billion Federal spending on counter-terrorism--
last year it reached $10 billion, enabling us to stockpile 
antidotes against bio-terrorism, to make grants for the 
purchase of equipment and to train local law enforcement and 
other first responders.
    The questions that the panelers will undertake today are 
the efforts that we--reaching those of us who are here on the 
ground. I think that, as has been said, that the weekend's 
exercise showed us in many cases that it's not quickly evident 
that an incident may be a biological attack and that the first 
people on the scene are always going to be our police, our 
firefighters and other emergency personnel. And, quite frankly, 
we want to make sure that they have the protection that they 
need and can deal with what is at the scene and the 
institutions, like our hospitals, are also equipped to deal 
with these kinds of things so that, in fact, the whole system 
just doesn't shut down when something like this could 
potentially occur.
    But are the efforts reaching us here on the ground? Are 
they effective? How can we better ensure that we're getting the 
tools that we need and the training and support to make us 
responsive to these acts of terrorism?
    The one thing as I was going through these, the various 
demonstrations, it occurred to me as to what extent the vast 
realm of our technology research, whether it is within the 
Federal Government's purview, within the military or whether it 
is in our academic institutions around the country and right 
here in our State, to what extent is the level of that research 
and that expertise being brought to bear on this issue in terms 
of the kinds of technology that we can employ?
    Robotics, for instance. We saw some demonstration of that, 
in which you can deploy the robot and save on--lives, loss of 
lives with personnel and an accurate indication of what the 
circumstances within whether it's a Federal building that may 
have been bombed or some other kind of effort.
    And I think that that's something that we ought to ask here 
and that we ought to try to pursue.
    I have gone on long enough as an opening statement for all 
of us. I look forward to the testimony of our witnesses here 
this morning and again say thank you to my colleague, Chris 
Shays, for bringing us all here this morning.
    Mr. Shays. I thank the young lady. And I do know that you 
have certain obligations later that you need to go to. So it's 
just appreciated very much that you're here to start us off.
    We are going to have a short presentation by John Wiltse, 
the director of the Connecticut Office of Emergency Management, 
and Colonel David Gavigan.
    I would just like to thank the Office of Emergency 
Management because they funded the process that you all went 
through on Friday. And I think it cost well over $20,000. And 
so that's very appreciated. And I think it was very useful and 
I know it will bear a lot of fruit.
    Mr. Wiltse.

 STATEMENT OF JOHN T. WILTSE, DIRECTOR, CONNECTICUT OFFICE OF 
                      EMERGENCY MANAGEMENT

    Mr. Wiltse. Thank you, Mr. Chairman. Mr. Tierney, Mrs. 
DeLauro, I am John Wiltse, director of the Office of Emergency 
Management. It is certainly an honor for me to appear before 
you. I am joined, as the chairman indicated, by Colonel David 
Gavigan, a terrorism preparedness consultant and our lead 
facilitator for the Park City response exercise.
    We'd like to give you a brief overview of the exercise and, 
most importantly, focus on some of the lessons learned. The 
exercise purpose is really to assess and to identify. As the 
chairman indicated, this exercise was designed to be 
incorporated into today's hearing.
    The structure and design. We had substantial and 
enthusiastic participation from representatives from over 40 
agencies. And we're extremely pleased with that. The players 
were grouped into seven functional areas, including emergency 
management, health, law enforcement, the city of Bridgeport 
Emergency Operations Center, first responders and a table 
utilized to represent a unified command system. Information was 
given as the scenario unfolded and the tables were able to 
consult with each other during the exercise.
    The chairman summarized a little bit about the scenario. 
I'd just like to highlight some items. We did simulate a high-
speed--the new high-speed Accela train, Amtrak service from 
Boston to Washington, DC. The train reported an explosion just 
outside of Bridgeport's Water Street station and made an 
emergency stop.
    The explosion produced 30 fatalities and dozens of more 
injuries which strained area hospitals, which were already at 
capacity with a spring flu.
    However, the real threat did not materialize for the 
players until a little later in the scenario when victims began 
to seek treatment for blister and respiratory ailments. This 
led players to correctly conclude that this was an act of 
terrorism utilizing a mustard chemical agent which began to 
impact the entire Connecticut medical system.
    And now some lessons learned. First of all, there is a 
clear lack of available portable equipment for use at the scene 
by first responders. Detection and personal protective gear is 
not available for most fire and law enforcement personnel. 
Without this good chemical detection equipment, first 
responders themselves became casualties during this exercise. 
Health personnel faced the very same issues. There's a general 
inability to sustain hospital operations in a chemical or 
biological environment.
    And although it was a tabletop exercise, all the agencies 
recognized that they would not be able to have communicated 
effectively in the field because of a lack of a centralized and 
expandable radio system.
    Detection and decontamination. There was a fair amount of 
confusion and problems in the exercise in correctly detecting 
and, most importantly, confirming the potential agent. There's 
a clear lack of effective decontamination systems for mass 
casualties in our health communities. Both medical facilities 
and first responder agencies simply do not have the equipment 
and facilities to accomplish this. Because of this lack of 
detection and decontamination capabilities, area hospitals did 
allow their environments to become contaminated during the 
exercise.
    Training and education. Although the exercise was very well 
received, all the functional areas indicated they would benefit 
from additional exercises. And we certainly hope to do that. 
Unfortunately, exercise resources are very limited, especially 
for municipalities.
    First responders also have a great difficulty attending the 
wide variety of out-of-state terrorism training currently 
available, mainly because their jobs have to be back-filled on 
the front lines of their fire and police stations.
    Agency roles and coordination. Additional exercising will 
certainly help us address this area. But there are a variety of 
different agencies and roles. There's a general need for more 
education and interagency planning to help simplify the 
response.
    Players did recognize a duplication of efforts as an 
example in the hazardous material identification area. In 
short, the incident commander is looking for a centralized and 
needs a centralized process to obtain resources, one that 
already exists, for example, with the Federal response plan.
    There's also a recognition that we must begin to look at 
developing regional capabilities, especially here in 
Connecticut where we do not have strong county governments.
    In summary, although we saw with this exercise on the front 
lines we have very capable agencies and personnel at local and 
State levels, there are certainly insufficient resources and 
they are not filtering down to the front lines. We must work 
more closely together to define our roles and missions at all 
levels of government, improve interagency planning and 
education and look toward regionalization.
    Mr. Chairman, if you have no questions, this concludes our 
presentation.
    [The prepared statement of Mr. Wiltse follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.005
    
    [GRAPHIC] [TIFF OMITTED] T8547.006
    
    [GRAPHIC] [TIFF OMITTED] T8547.007
    
    [GRAPHIC] [TIFF OMITTED] T8547.008
    
    [GRAPHIC] [TIFF OMITTED] T8547.009
    
    Mr. Shays. Thank you very much.
    We're going to be swearing in our witnesses. And just to 
acknowledge and point out that we're having three panels. It's 
probably the largest number of people per panel that I've ever 
had in any of my hearings. We're going to do local, then we're 
going to do State and then we're going to do Federal. It's 
probably going to necessitate our doing a lot more listening 
than asking questions. But we'll just see how it goes. We're 
very excited about the day and really appreciate all the 
participants.
    We have our witnesses. And then I'll ask them to stand. But 
let me just introduce them. We have Dennis Murphy, the Chief 
Administrative Officer for the city of Bridgeport.
    Dennis, nice to have you here.
    Accompanied by Mr. Scott Appleby, Emergency Management 
Director, city of Bridgeport.
    We have the Honorable Kenneth Halaby, the first selectman, 
town of Trumbull.
    Ken, great to have you.
    And we have Chief Hector Torres, Police Department, city of 
Bridgeport.
    Chief, it's always great to have you here.
    And then we have Chief Michael Maglione, fire department, 
city of Bridgeport.
    Wonderful to have you here as well, Chief. And appreciate 
all that you all did on Friday.
    And then we have Mr. Thomas Gecewicz--Gecewicz. I'm not 
saying it correctly. Did I say it right the second time?
    Mr. Gecewicz. Gecewicz, sir.
    Mr. Shays. Gecewicz. Thank you, sir. Director, Health 
Department, city of Bridgeport. And you're doing a great job in 
a very difficult position.
    Accompanied by Ms. Jane Winters, emergency medical service 
coordinator--excuse me. Accompanied by Mr. Stephen Carden, 
joint hospital coordinator, Bridgeport Hospital, and Ms. Jane 
Winters--thank you--emergency medical service coordinator, St. 
Vincent's Medical Center.
    If you would, I would invite you to stand. We swear all our 
witnesses in. The only one who has ever gotten away with not 
being sworn in was Senator Byrd when he came in. Big surprise. 
Right?
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    Note for the record that all our witnesses responded in the 
affirmative.
    And quickly, to get some housekeeping out of the way, I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and the 
record remain open for 3 days for that purpose. And without 
objection, so ordered.
    I ask for the unanimous consent that all witnesses be 
permitted to include their written statement in the record. And 
without objection, so ordered.
    Our practice is to give 5 minutes and then roll over for 
another 5. But--we'll roll over, but if we could--if you're--
we're hoping you can close by 5 minutes. But if you have--need 
a minute or two more, that's fine.
    Just paying respect to our chief elected official, I'm 
going to have Mr. Halaby--you're going to open us up. And then 
I'll call on Dennis Murphy, the Chief Administrator.

 STATEMENT OF KENNETH HALABY, FIRST SELECTMAN, TOWN OF TRUMBULL

    Mr. Halaby. Thank you, Chairman Shays and members of the 
panel. It's a pleasure to be here with you today.
    Mr. Shays. Ken, I'm going to ask you to move the mic in 
front of you a little more.
    Mr. Halaby. A little bit more?
    Mr. Shays. This way.
    Mr. Halaby. This way. OK.
    Mr. Shays. Is that all right?
    Mr. Halaby. That's fine.
    Mr. Shays. OK.
    Mr. Halaby. I'd like to thank you, Chairman Shays, and your 
panel for putting together that wonderful symposium that was 
sponsored by the Connecticut Office of Emergency Management, 
the State Military Department and the city of Bridgeport.
    Mr. Shays. Ken, I'm really sorry. I'm going to ask that the 
mic be tipped down and be----
    Mr. Halaby. Tipped down. OK.
    Mr. Shays. Yes.
    Mr. Halaby. Is that better?
    Mr. Shays. Yes.
    Mr. Halaby. Closer?
    Mr. Shays. Tilt it like this a little bit so----
    Mr. Halaby. All righty. Is that better?
    Mr. Shays. Good. Is that all right?
    Mr. Halaby. That's fine.
    Mr. Shays. Good. Thank you.
    Mr. Halaby. OK. Trumbull, as you know, is a small town 
adjoining the city of Bridgeport. But we did not take this 
exercise lightly. We had 14 representatives at the tabletop 
from our police department, fire department, EMS, fire 
marshals, fire chiefs, our Health Department and a school 
principal and a school officer, along with some of our security 
guards.
    It was a wonderful opportunity for us to learn more about 
the needs of our community and our surrounding cities in the 
Greater Bridgeport area.
    I will not reiterate the need that has already been 
expressed in the previous testimony by other people here. But I 
would just like to emphasize after the tabletop exercise, we 
all went back to our Town Hall and felt that the greatest need 
was training. A town like Trumbull of 33,500 doesn't have the 
finances or wherewithal to get the expert training needed to 
respond as effectively as we would like to.
    Along with that, of course, comes the necessary personal 
protective equipment which we found was in need for such a 
disaster that may or may not occur and, also, funding for the 
necessary detection equipment and other equipment needed in 
these disaster situations.
    The interdisciplinary training was thought to be of 
critical importance and the need to have current lists of who 
to call, when to call, from all levels so that if we had to be 
first responders within our own town or, in fact, backups to 
our sister city of Bridgeport wherein they might ask us to have 
our Public Works Department come in to set up roadblocks, if 
the police who already had roadblocks set up were--needed to be 
relieved of their duties, if they needed extra assistance for a 
command center, which we do have the capability of in our town 
with generators and backup equipment. We have a great media 
center with all the necessary equipment there.
    We would stand ready to help, if there was an overflow in 
the hospitals, to set up such emergency needs through the Red 
Cross in all of our schools. And we stand ready to help a city 
like Bridgeport wherever needed in such a disaster.
    In terms of our own needs, we are spread out. We're a small 
town. And the crises of hitting a big building outside of our 
schools or our small Town Hall are not quite of the same 
magnitude as what we had experienced when the Bridgeport case 
was presented to us.
    However, we cannot take anything for granted. Towns small 
or large can be hit. And we do need the training, the equipment 
and the guidance from those who are in much better positions 
than ourselves to help better prepare us because as a small 
town we just do not have the funds to do it ourselves.
    I think, Mr. Chairman, that pretty well sums up my 
presentation.
    Mr. Shays. Thank you. We may have a question, too, to ask 
you.
    Mr. Halaby. Sure.
    Mr. Shays. At this time, we will ask--Mr. Murphy, it's 
wonderful to have you here. And thank you.

STATEMENT OF DENNIS MURPHY, CHIEF ADMINISTRATIVE OFFICER, CITY 
                         OF BRIDGEPORT

    Mr. Murphy. Thank you, Congressman. And on behalf of Mayor 
Ganim, who was unable to be here, he wishes to express his deep 
gratitude to you and to the committee members for focusing on 
this very important issue.
    There are--there is testimony submitted by Mayor Ganim that 
you have. I will simply summarize. We will have, as you know, 
the fire chief, police chief, health director also testify in 
terms of their areas of expertise.
    But there are a couple of issues that I would suggest need 
consideration. It's been pointed out that a city like 
Bridgeport would be the first responder to an act of terrorism. 
And on Friday, the exercise, one thing we learned was once a 
toxic substance was identified and released, that Bridgeport 
did not have the technical capacity in the haz/mat area to get 
sufficient empirical information on the spreading of this toxic 
substance to make those initial decisions. The decisions of 
sending children home from schools, evacuating neighborhoods, 
need to be made on a local level within the first hour, the 
first 2 hours, of course, depending on the nature of the 
episode.
    The haz/mat, Fairfield County Haz/Mat, that we cooperate 
with tremendously and who do tremendous work simply can't 
respond in that quick a time. And perhaps if these episodes 
occur, they may be drawn elsewhere. So I--those decisions that 
we need to make on a local level, which really directly affect 
people's lives, we would need the supportive equipment and 
training to be able to make those determinations.
    Obviously, there's other equipment, the personal protective 
gear, et cetera, that we do not have available for police who 
would be rushing to the scene, all of that are needs that we 
have for this type of episode.
    The second area I would point out that you find in the 
mayor's testimony is simply the recognition that the city of 
Bridgeport is on the nexus of major transportation routes. I-95 
running through Bridgeport and the train, as pointed out 
Friday, and Route 825 running down, have, in our knowledge, 
limited knowledge, quite an extensive transport of chemical, 
noxious, other types of materials.
    Now, we fully understand the importance and the necessity 
for those having high security in terms of identification of 
when those are transported through the city.
    But I think that some consideration might be given to 
developing protocols as to either advising urban areas when 
those transports are occurring, to some extent. Minimally, 
protocols as to should an event occur, an accident on the 
highway, a Mianus bridge giving out, thus dumping some toxic 
materials on the city of Bridgeport, as to a quick 
identification of the nature of the product, the volume of the 
product that's being transported through our city. And right 
now that doesn't exist.
    And I think those are critical areas up front that may help 
us identify who in the national level has that information and 
to quickly make those first responder decisions. Without that 
information, our decisionmaking is in the dark.
    So we very much appreciated learning on Friday all of the 
vast array of expertise with the FBI and the Federal agencies. 
And I think it was a tremendous learning experience for us.
    And, Congressman, I really would like to thank you for your 
efforts in this regard. Thank you very much.
    Mr. Shays. Thank you very much.
    Chief, thank you for being here.
    I guess we have two Chiefs here. But Chief Torres. Thank 
you. That's like what I encounter sometimes when someone says 
something about Chris Dodd and I think they're talking about me 
and then I'm embarrassed to find out they're talking about 
Chris Dodd.
    So, Chief Torres, you have the----

  STATEMENT OF HECTOR TORRES, POLICE CHIEF, CITY OF BRIDGEPORT

    Chief Torres. Thank you. Thank you, Mr. Chairman. And it's 
a real honor for me to present here and have this opportunity 
to give testimony before the Subcommittee on National Security.
    Mr. Shays. I'm going to ask you to tilt the mic this way so 
it comes over your paper a little bit.
    Chief Torres. OK?
    Mr. Shays. Yes.
    Chief Torres. Is that better?
    Mr. Shays. Yes.
    Chief Torres. OK. It's a real pleasure for me to be here 
this morning to give testimony before the Subcommittee on 
National Security, Veterans Affairs, and International 
Relations.
    This past Friday was a real eye-opener for me. I've been an 
interim chief and I'm still in the learning process of learning 
this business of being a chief. It was especially gratifying 
for me to be there to take part in this important incident, 
command, terrorist activity that just took place.
    As chief of police, I understand that more funding is 
needed. And I know that everybody has alluded to that, 
including John Wiltse from the State Emergency Office of 
Management Services (sic). And for me as an overseer of first 
responders, it's important that our first responders, police, 
fire, any emergency personnel, have the ability to maximize 
their effectiveness by having the proper equipment available to 
them at the beginning of the incident.
    Overall, the operation, the incident that took place on 
Friday was very helpful. It was--it helped us to identify the 
levels of resources that are available to us at the local, 
State and Federal level. I didn't realize how many bells and 
whistles are out there. And as I look around the room, you 
know, I'm still amazed that there are a lot of bells and 
whistles that are available to us.
    The question is, is the opportunity to have them available 
to us in the city of Bridgeport or in the region in a timely 
fashion? So that's one of the things that we need to look at, 
is to maybe have some of these bells and whistles in our own 
back yard. Not that they, you know, don't need to be available 
in Massachusetts and other locations, but we need to start 
looking at it in a more reasonable approach that are located in 
our own back yard, available to us in a more timely fashion.
    The incident that allowed us to put our thinking caps on--
and I believe that more of this integrated training is 
necessary so that we at the local, State and Federal level can 
operate in a uniform command structure way.
    And, again, I'd like to reiterate that all this funding and 
all this equipment is necessary at the municipal and regional 
level.
    And I thank you for this opportunity.
    Mr. Shays. Thank you, Chief.
    [The prepared statement of Chief Torres follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.010
    
    Mr. Shays. Chief Maglione.

 STATEMENT OF MICHAEL MAGLIONE, FIRE CHIEF, CITY OF BRIDGEPORT

    Chief Maglione. Let's see if I can do this right. 
Reasonable?
    Mr. Shays. Great.
    Chief Maglione. OK. Besides speaking as the fire chief of 
the city of Bridgeport, I'm also speaking for the International 
Association of Fire Chiefs.
    As you're well aware, fire service throughout the country 
is the first responder on all types of incidents. But using the 
scenario that we went through on Friday, the key points that I 
believe are going to be repeated again and again today are, 
one, the need for the equipment at the local level for an 
immediate determination of what type of agent that we're 
dealing with, to safeguard our first responders, to safeguard 
our citizens in general.
    The second level of--that would fall into the equipment 
range. And, again, equipment range would be protective 
equipment for the first responders that are responding.
    Second, we need ongoing training, training that involves 
the local, State and Federal agencies that are involved, not 
just in every 3-year timeframe or every 2-year timeframe but on 
an annual basis where we would have a large-scale event and on 
a smaller scale, involving those same agencies, such as in the 
tabletop drills.
    In the area of equipment, Congress has focused on each of 
the 50 States. In doing so, it is important that we not forget 
that this equipment be supplied to the first responders. In 
Connecticut, in the Fairfield County area, we deal with a 
regional response as far as hazardous materials are concerned. 
This type of team has to have the equipment and the training 
equal to anything that would be available at the Federal level, 
which would be available at the State level.
    It's very nice that we have the assets at the Federal and 
State level. However, the problem here is that their response 
time is 4, 6, 8 hours out in the scenario. OK? And it's just--
it's a consequence of distance. It's not any other problem. But 
we have to have this detection equipment and preventive--
mitigation equipment available to us immediately.
    OK. There are two operational issues that should be 
addressed, command and control and communications. And that--in 
the scenario on Friday, they came very quickly to the front. 
Communications with all the agencies that were involved--and I 
believe the slide showed there were 40 different agencies. We 
have to have a means of communicating. OK? And this lack of 
interoperable radio communications among the responding 
agencies is a major weakness. OK?
    Congress has the ability to change this. They have the 
ability to set aside frequencies that will be devoted to just 
this type of massive emergency.
    In the long run, it will be a lot more successful. It's a 
shame that in actual circumstances we end up using runners 
which were used back in George Washington's day. It's something 
that we have to work on.
    OK. Command and control. The Bridgeport Fire Department 
uses the Incident Command System, the ICS system. This is 
taught by the Federal Emergency Management, the National Fire 
Academy. It's something that all agencies, whether they are 
local, Federal or State, have to be involved in. They have to 
learn how the system works, how it functions, how it's modular 
construction and where we all fit in in that system.
    OK. Finally, an effective preparedness effort and an 
effective response to an incident of terrorism requires a 
planning effort that must involve all levels of government. We 
cannot possibly develop a successful response system without 
the active participation of all of the responsible agencies at 
all levels of the government.
    We should plan together and train together. And we should 
do so with an eye to the fact that we may face a spectrum of 
incidents or threats, terrorist or non-terrorist. All agencies 
working toward an all-risk national response system is what is 
called for.
    Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Chief Maglione follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.011
    
    [GRAPHIC] [TIFF OMITTED] T8547.012
    
    [GRAPHIC] [TIFF OMITTED] T8547.013
    
    [GRAPHIC] [TIFF OMITTED] T8547.014
    
    [GRAPHIC] [TIFF OMITTED] T8547.015
    
    [GRAPHIC] [TIFF OMITTED] T8547.016
    
    Mr. Shays. Mr. Gecewicz.

  STATEMENT OF THOMAS E. GECEWICZ, DIRECTOR OF PUBLIC HEALTH, 
                       CITY OF BRIDGEPORT

    Mr. Gecewicz. Mr. Chairman, thank you very much. As you can 
tell by my accent, I hail from the great State of Massachusetts 
and I'm a newcomer to the city. I started here February 1. And 
as we all know, anyone from Boston would take advantage of any 
political setting. So I will take advantage of the entire 5 
minutes, Mr. Chairman. Thank you.
    Mr. Shays. I'd like the record to note, though, we wanted 
your training in Massachusetts so by the time you got here, you 
were all set to do the job just perfect.
    Mr. Gecewicz. Totally agree.
    Mr. Shays. OK.
    Mr. Gecewicz. And it was the wisdom of the administration 
to save moneys and do that. Thank you.
    I am a certified health officer nationally and I serve on 
the National Association of City and County Health Officers. 
And I will be testifying on behalf of themselves and the great 
city of Bridgeport.
    As an elected member of the National Association, we 
brought forth 5 years ago to Congress the original debate 
relative to bio-terrorism, Mr. Chairman. And the concern at 
that time was relevant to what happened with Oklahoma City and 
also the travesty that took place with Hurricane Floyd and how 
the devastation hit this poor State of Florida.
    It was well known that surveillance through public health 
was the key issue. And if there was a terrorist act, it would 
be a public health threat through anthrax or any other issue. 
And we thank Congress that the moneys were originally 
appropriated. But, unfortunately, the word ``surveillance'' got 
lost in Congress. And as we know, our associate concerns, the 
CIA, the FBI and the Department of Defense use the word 
``surveillance'' different than the original intent, which is 
to evaluate the need for public health concerns. And moneys 
were diverted from the public health issue through Donna 
Shalala, the Secretary of Human Health Services, and was put 
into the other three Federal agencies and public health took a 
back door.
    Fortunately, there is a filing under the 106th Congress 
last week by Senator Frist, the Republican from Tennessee, and 
also Senator Kennedy, the Democrat from Massachusetts. And this 
is for the Internet Health Network. And I would ask your 
committee to strongly support this bill when it comes before 
you. It will finally put the moneys back into Public Health 
where it should be, members of the committee, so that we can 
guarantee that any virus, bio or any other form of negativity 
that would be hitting our American citizenship would be 
protected on the public health front line.
    I can actually say that we worked cooperatively on Friday. 
And being a newcomer to the city, it was great to see, with the 
accents and everything that was going on, the communication at 
our table was significantly positive. Unfortunately, we all 
found out that the needs for proper communication is definitely 
the issue.
    I would say the FCC should definitely get involved. Most of 
us can complain when we use our cell phones that there are 
blind spots. Imagine if a blind spot is the location in which a 
terrorist act would take place. As we know, the terrorism would 
take place of any our weak points. And if you're in the 128 
belt, Mr. Tierney, you know how often you lose communications. 
And if you're in the hills, the western part of the State of 
Connecticut, you also lose communications. Therefore, the FCC 
has to make sure and guarantee that proper communications will 
be there.
    We on the public health concern are also concerned with 
viruses. We're more concerned with issues such as the West Nile 
Virus which is spreading into us, our State, due to the 
mosquito issue, which was brought into this county, 
unfortunately, at the LaGuardia Airport some time last summer. 
So infiltration from outside the country can happen to us any 
given time, as can a terrorist act.
    And we can guarantee through the first Kennedy Bill that 
public health concerns will be protected, that we will have the 
EMS services that we need and that the positive action that our 
hospitals here in the city had and the interfacing that we had 
with all the other departments federally and locally will be 
strengthened through communications. This is one of the key 
issues.
    Not one Health Department actually is fully based across 
the country. The original appropriations verified that 3,100 
Health Departments did not even have front line communications 
other than a fax machine; 95 percent did not even have computer 
capability. That was the intent of the original appropriation.
    Unfortunately, we can verify at this point that is still 
the case. And Health Departments have to be on the front line. 
That's why Secretary Shalala has guaranteed, to the best of her 
ability through CEC, that we will have the appropriations if 
this bill does go through from Senators Frist and Kennedy.
    All I can say is that there is a need. You know the need 
exists. Congress heard our call 5 years ago. We're here again 
asking for public health to be equally treated with our other 
defense and agencies that serve our public.
    I thank you for the timing and giving me the opportunity to 
speak. Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Gecewicz follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.017
    
    [GRAPHIC] [TIFF OMITTED] T8547.018
    
    [GRAPHIC] [TIFF OMITTED] T8547.019
    
    [GRAPHIC] [TIFF OMITTED] T8547.020
    
    [GRAPHIC] [TIFF OMITTED] T8547.021
    
    [GRAPHIC] [TIFF OMITTED] T8547.022
    
    [GRAPHIC] [TIFF OMITTED] T8547.023
    
    [GRAPHIC] [TIFF OMITTED] T8547.024
    
    [GRAPHIC] [TIFF OMITTED] T8547.025
    
    [GRAPHIC] [TIFF OMITTED] T8547.026
    
    [GRAPHIC] [TIFF OMITTED] T8547.027
    
    Mr. Shays. I just would note that Mr. Appleby and Mr. 
Carden and Ms. Winters, you're full participants in this 
dialog. So don't be reluctant to step in.
    That's concluded the testimony. And I'd ask Ms. DeLauro if 
she'd like to start us off.
    Mrs. DeLauro. I appreciate the consideration. I have to 
catch an airplane back to Washington in a little bit. So I 
thank my colleagues for allowing me to go first.
    Let me just ask--we've heard the commentary about the 
equipment and the local training and the detection equipment, 
et cetera. Let me just ask a couple of questions to help me. I 
got the results of the drill on Friday. I could not be present 
at the drill.
    But it's my understanding that once there is Federal 
involvement, the leadership is clear. FBI takes the lead on 
crisis management. FEMA takes the lead on the consequence 
management. Who is in charge when both police and fire 
emergency medical teams are on the scene of an incident like 
this? And what happens when other State and Federal and local 
agencies arrive? In essence, who is in charge in the--when the 
first responders are on the scene?
    Chief Maglione. OK. Will----
    Mrs. DeLauro. I'm going to just say anybody answer at the 
moment because I want to save some time here. I'm not going 
to----
    Chief Maglione. I'll take it.
    Mr. Shays. Let me--if I could just ask you to suspend a 
second?
    The interesting thing of this question will be that we're 
doing it from the local. We'll ask the same question of the 
State and the Federal. And we may get different answers. But 
we're asking from your perspective and then what you think 
should happen.
    Mrs. DeLauro. Right. Because my followup to that is then 
who do you think--let me just say the question. Who do you 
think should be in charge? Who is in charge? Who should be in 
charge? Do you think we can have a regional, literally a 
regional approach to command and control of these situations 
and with sharing of equipment, et cetera? Then I have a final 
question.
    Chief Maglione. OK. Well, as far as responding to an 
incident--OK--in the State of Connecticut the fire service, 
when they respond, is in charge. However, in an incident of 
this magnitude or any magnitude that involves police department 
EMS, a joint command is set up. And that joint command flows 
even as other agencies become involved. As the State becomes 
involved, there--at the actual incident, there is a command 
level and there would be a joint command of what agencies were 
actually functioning at the incident. Then, as additional 
resources are brought in--and I use the term resources--these 
groups would be, you know, additional resources.
    Mrs. DeLauro. For instance?
    Chief Maglione. Health departments at the State level, 
health--emergency management, additional police at the State 
level. OK? So the control--the command--there would be a 
command at the incident and then in an emergency operations 
center, whether that be local or, as it becomes larger, at the 
State or Federal level, to where the FBI would step in and 
create a JOC.
    Mrs. DeLauro. So at the scene at the moment, you have your 
first responders. The first agencies in charge are police and 
fire.
    Chief Maglione. Yes.
    Mrs. DeLauro. It's a joint----
    Chief Maglione. It would be a joint----
    Mrs. DeLauro. It's a joint effort.
    Chief Maglione [continuing]. Command because decisions 
would be made that we--one individual would be the incident 
commander. But as the emphasis at the scene shifted, if it 
became now an issue arose that should be more police-oriented, 
then the police representative would make the request to his 
higher-up that ``We need this section blocked off.'' OK? If 
it's--and if the incident grew as far as more information was 
needed, a haz/mat decision, the fire then would step in and 
take the lead and say ``We need this, this, this.''
    Mrs. DeLauro. All right. You're there. You're on the 
ground. You've got a joint command. You know, we may have the 
hospital people coming in to deal with that. But they filter 
through you.
    Chief Maglione. OK. The house----
    Mrs. DeLauro. Then what happens----
    Chief Maglione. That would be back at another level----
    Mrs. DeLauro. OK.
    Chief Maglione [continuing]. As a resource.
    Mrs. DeLauro. That's a resource. So that's a back-up.
    Chief Maglione. That's a resource.
    Mrs. DeLauro. What happens when the State people come on 
the scene?
    Chief Maglione. The State--my understanding is the State 
comes in as a resource.
    Mrs. DeLauro. As a resource----
    Chief Maglione. The local community----
    Mrs. DeLauro [continuing]. To the local effort.
    Chief Maglione. Right. The local community is the command 
function.
    Mrs. DeLauro. And then what happens when the Federal 
Government comes on the scene?
    Chief Maglione. Again, it's still a resource. But until----
    Mrs. DeLauro. This is Big Foot? I mean is that----
    Chief Maglione. Yes. No. And I learned something new. When 
the FBI declares a joint command, they become--they become 
involved at the higher level. But still at the incident itself, 
that initial group of local responders will still be in command 
but now fall under the guidance of the Federal authorities.
    Mrs. DeLauro. Is that the way it should be? Oh, go ahead. 
I'm sorry, Mr. Gecewicz.
    Mr. Gecewicz. If I could speak on behalf of the public 
health concern? We in public health statutorily from the 
Federal level down could take the initial control ourselves and 
always have had that right since 1860 specifically. However, we 
do not because we are not really equipped to do such. We may be 
there for the evaluation. After the concern of the police and 
fire and the incident is secured and protected, then comes the 
real issue; that is the savings of lives, the continuation of 
support of the well-being.
    As we know, we're a government of the people, by the people 
and for the people. The people are locally and that's where the 
local service is going to be, the local police, fire and health 
departments responding cooperatively together with the 
assistance of the EMS to save lives and property.
    By the time you have the State kick in, which, 
unfortunately, the State across the country have been trying to 
get the capital--across the entire country, most of the dollars 
have been going directly to the States and they have not 
trickled down to the front level line of protection, which is 
the local communities. This is what has to be altered. The 
local communities need the capital. It would take 2 to 4 hours 
before the public health services or any other State services 
other than a police department could respond. The State police 
are here with us. They, I would say, were the only State agency 
that could respond immediately to us. And they do an excellent 
job. But my knowledge in four other States have always been 
that, other than the State police, it takes 2 to 4 hours for 
any other State agency to get in line to be on the front line 
to support us. And the Federal Government would take 8 hours or 
an average of that before. By that time, lives are lost.
    Mrs. DeLauro. Are already lost. How--that's your--how 
should we--should we keep it the way that you've talked about 
it today? Should there be some other mechanism?
    Chief Maglione. As far as the command structure is, I don't 
think any changes have to be made in the command. It's just 
that everybody has to be instructed in the Incident Command 
System and understand how that develops.
    Mrs. DeLauro. OK. Is there any kind of regional plan that 
exists at the moment or local plan? In other words, today we're 
talking through all of our school systems, all of our school 
personnel and administrators, and saying to them ``Because of 
the incidents of youth violence all over the country, that you 
need to be prepared. You need to be able to deal with the 
building. You need to be able to deal with the students. You 
need to be able to deal with what's happening.'' So literally 
today we're looking at school systems all over the country who 
have a plan on paper that says, ``This is how we proceed when 
something happens.''
    Is that the same for these kinds of incidents?
    Chief Maglione. Yes. Yes.
    Mr. Gecewicz. Every State FEMA division or EMS has a State 
plan. And the State plan is broken down to regions. And each 
region is broken down locally.
    Mrs. DeLauro. Did the plan work on Friday?
    Mr. Gecewicz. Yes.
    Chief Maglione. Yes. The plan worked, but there were 
breakdowns in communications. It's a function of people working 
together using the plan and learning the plan so that when the 
incident happens, no matter what the type of incident, 
depending on the scale, people can step into the positions and 
know what the responsibilities are and then, as part of that 
plan, know also what resources are available at the different 
levels.
    Mrs. DeLauro. OK. I have just one final comment. It would 
seem to me from what I've heard--and, again, I was not there on 
Friday. So I just--I read the newspaper account as well--is 
that--and from what I've heard you say here is that there was a 
plan. The plan worked with some glitches and some breakdowns. 
And, yet, I've heard everyone say the ability to deal with 
this--there was lack of resources, lack of local equipment, 
lack of local training, you know, several other missing pieces.
    So I'm trying to get a sense of whether or not we have at 
least a framework in which we can deal with this issue, but we 
don't have a whole lot of resources, whether they're technical 
resources or personnel resources, in order to be able to 
effectively implement the plan. Is that--yes.
    Mr. Murphy. If I might just--the plan that we have, there 
is an onsite command center, which is police, fire. We have, 
once it's declared, our emergency operations center is opened, 
then essentially the mayor is in charge of all of those assets, 
board of education, health department, fire department, et 
cetera. That's the command center.
    The protocols that I think need to be developed or more 
clearly communicated and disseminated are once the State and 
Federal agencies, particularly Federal, arrive on the scene and 
set up what they refer to as a joint command center--I was 
confused on Friday as to----
    Mrs. DeLauro. Who was really in charge?
    Mr. Murphy. As to they were commanding what subject matter 
issues? Certainly if it's terrorism, they're in command of 
those policing issues. But if it's a command issue of are we 
evacuating schools and neighborhoods, closing the city, 
closing--suggesting Fairfield close, that's coming out of our 
local EOC. So I--it's those protocols as to who is in charge of 
what I think need to be spelled out a little bit better.
    Mrs. DeLauro. What's our ability to do this on a regional 
level when you have--you know, the Third Congressional District 
is 18 towns. You know, the Fourth District is, you know, eight?
    Mr. Shays. Ten.
    Mrs. DeLauro. Ten. Sorry.
    Is--realistically, can we do this on a regional basis, 
given turf----
    Chief Torres. I believe we can change that.
    Mrs. DeLauro [continuing]. And jurisdictions?
    Chief Torres. I believe it can be regionalized as long as 
we come up with a joint consolidated action plan. You know, we 
all have to be on the same page. And that involves the training 
and the exercises, joint exercises, so that we could all 
understand what our roles are and that we don't operate outside 
of our roles.
    Chief Maglione. The main problem here is that if we're 
accepting a 4-hour response, 6-hour response, 8-hour and out, 
then we should tell our citizens right now a lot of people are 
going to suffer. OK?
    What we're looking for, at least on--as first responders, 
is to have the ability to make determinations very quickly so 
then we can shorten that timeframe on getting the additional 
resources available. And that's where we lack.
    We lack the detection equipment. We lack the training. And 
a terrorist event that involves an agent is nothing but a haz/
mat experience. We need that.
    Yes, on a regional basis as far as having a regional haz/
mat team that's trained and equipped to the level at the 
Federal agencies, that's wonderful. OK? Because maybe it's 
beyond--it's definitely beyond many of the smaller communities 
to do that. And so a regional approach is very good. A larger 
city may have the ability to do it within itself.
    But, as far as that, the equipment and the training and the 
response and a quick response, that's the important element 
that I see. OK?
    As far as the command and control that we were talking 
about the different levels, there is a system in place. It's 
just a matter of people working together and training. OK? And 
it's a system that goes across the country. OK? It's already 
been taught by FEMA, by the National Fire Academy. And it's 
used. OK.
    Part of that training also has to be what are the 
responsibilities of the local people as it escalates to a State 
event and a Federal event. OK?
    Mrs. DeLauro. Thank you very much.
    Mr. Gecewicz. If I could make a summation? And I think we 
learned this in the Chelsea fire. The concern is that when they 
shifted from the local to the Federal level, those who have 
always worked with the Feds were invited to the table. The Feds 
invited the police and fire. Public Health was not invited. 
However, Public Health has always been trained that disease 
does not know boundaries. Disease carries across county, town 
and State lines.
    And the concern I had--and I did make note to my national 
association, exactly as when everyone got to the table, Public 
Health was there always speaking, but we're always pushed 
behind because those who have always worked cooperatively 
together were together. Public Health has never been at the 
table.
    But I will say in this administration, with what we had 
here in the city, I was equally treated with my other brethren 
and I felt comfortable and that concern has been positive in 
the city. But I have not seen it in any other city across the 
Nation.
    Mrs. DeLauro. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you for your testimony, members of the panel. If I 
can just concentrate on two areas before I give the microphone 
back to the chairman on this? One would be hospitals. We had a 
little bit of testimony on this down at some of the hearings in 
Washington. And I was concerned about the capacity of hospitals 
to actually service people that were coming out of these 
incidents.
    And I understand from the review of what happened on 
Friday, you've got the further difficulty of contamination once 
people got to the hospital, as well as treatment.
    Could you tell me a little bit about those three aspects?
    Mr. Carden. Yes. Certainly. The hospitals certainly have 
internal/external disaster plans and prepare for incidents like 
this. However, they have to know the incident exists. And one 
of the big problems we have with any incident like this is that 
you just don't get patients transported by ambulance to the 
hospital. You get the ones who walked away from it and then 
walk in and you don't know they're contaminated.
    In addition, the hospitals do have limited resources for 
decontamination. If you have an outside shower stall with ice 
cold water and it's bad weather, it's not a good way to go.
    And once you bring these patients in and you've 
contaminated an area, you have to isolate them and then 
identify areas for the other patients to go to and block things 
off. So there's certainly difficulties there.
    And in this scenario, patients were brought in and ended up 
being treated in the cafeteria, which I hope doesn't happen 
ever. But that was the case. So the whole area was 
contaminated. There was a real problem with that. And then you 
need to look for other areas.
    Hospitals do have plans in place that will isolate areas. 
They have plans to bring additional staff in. Certainly, part 
of the big process there is education, especially for the 
staff. If you call me at home and you tell me somebody's coming 
in with some horrible disease and I don't know what it is, it's 
going to be hard for me to tear myself away from my family and 
drive in. So educating the staff and getting the equipment 
that's required for that is important.
    Other capabilities they have currently are disaster plans 
that address bio-readiness for terrorism that are close to in 
fruition. We're lucky in Bridgeport that the two hospitals work 
very closely together in terms of hazardous plans and things of 
that nature.
    Jane, is there anything----
    Mr. Tierney. If I could just interrupt you before you give 
it to Ms. Winters there? You have a large number of people 
potentially coming in all at once or, worse, they come in a 
little bit at a time and it mounts to a large amount of people. 
What other facilities do you have besides the hospitals 
themselves? Because, assuming this happens--as I understand, 
your scenario indicated on Friday you have a flu epidemic or 
something. Do you have a contingent plan for setting up an 
alternative site?
    Mr. Carden. We--currently at Bridgeport, I don't believe 
there's an alternative, alternate site. We do have available 
floors and space in the hospital that's not utilized. And when 
those incidents occur, especially with a flu epidemic, what we 
do is call in additional staff and reopen floors and assign 
beds.
    Mr. Tierney. OK.
    Ms. Winters. In addition, we also have communication with 
the other hospitals in the State of Connecticut that we would 
be able to find out what their resources were. But in the drill 
this past Friday, our resources were clearly wiped out because 
of a lack of understanding as to what exactly was occurring.
    We would be getting information from our EMS and from our 
communications system that says there was something going on 
and this may occur. But, again, we're--our preparedness, we 
have very limited resources. We happen to work in a city that 
has chosen to act rather than react. This isn't the case in all 
the towns that we service.
    And, unfortunately, I would have to say if this was to 
occur in one of our smaller communities, I don't think the 
response would have been as good.
    Mr. Tierney. Tell me a little bit more about that. Why? 
Where is the communication breakdown between the incident and 
the hospital's knowledge of when and where and what?
    Ms. Winters. The responders that are going in may be local 
volunteers who may have the knowledge but don't have the 
frequency. They don't have the opportunity to train and to 
practice and continue to update their needs. They have high 
turnovers. Volunteerism in the State of Connecticut is--we're 
struggling with some of our volunteer services. And as that 
occurs, we're then relying on resources which are very well 
prepared. But they may be 5, 10, 15, 20 minutes away for the 
first responders to get there.
    You have fire service that would be there. You have police 
departments that would be there. But, again, they may only have 
three or four people currently on staff. To deal with a 
situation like we were presented with, their resources would be 
overwhelmed the minute they hit the scene.
    Mr. Tierney. So you're advocating training getting down to 
all of the reserve forces and the----
    Ms. Winters. Correct.
    Mr. Tierney [continuing]. Volunteers? Well, that's an 
enormous----
    Ms. Winters. Correct.
    Mr. Carden. There's no question that the volunteers in all 
the services need training. It was clear that we had a lot of 
canaries going into the mine on this exercise. And, of course, 
they didn't come back out.
    The education and training aspect to identify what are 
problems before you talk into it is very important, not only 
for us--and we're the guys in the big city who walked into 
this. Think of the folks who have no serious high-level--or 
high-volume, I should say, experience with that.
    Mr. Tierney. Mr. Halaby, excuse my ignorance, but I'm not 
familiar with the--with Trumbull and how it operates. Do you 
have a volunteer force there?
    Mr. Halaby. We have a volunteer fire department. We have 
about 130 volunteers who do an outstanding job, three fire 
districts----
    Mr. Tierney. And how are they equipped----
    Mr. Halaby [continuing]. Three Fire Chiefs----
    Mr. Tierney [continuing]. For a situation like this. How 
would they be able to respond and interact with the hospital to 
make sure that everything was ready and able to go forward?
    Mr. Halaby. They are trained pretty well. However, I think 
they need to go through these exercises in terms of interacting 
with other interdisciplinary agencies, as well as the 
hospitals.
    Mr. Tierney. So more regular----
    Mr. Halaby. Yes. Training.
    Mr. Tierney [continuing]. Incidents like you had on Friday.
    Mr. Halaby. Yes. Indeed.
    Mr. Tierney. OK. Thank you.
    Mr. Gecewicz, let me ask you. I think it was you that 
mentioned--or it might have been Chief Maglione--about the 
frequency issue on communications. Was it the Chief? I'm sorry.
    You're telling me that basically one of the situations that 
you had was that there was not a secure frequency that was 
available to the responders on this?
    Chief Maglione. What is missing is a frequency or a 
multiple of frequencies, not just one frequency, that all the 
agents, agencies that are involved can communicate on. We all 
come to the table with all different frequencies.
    Mr. Tierney. Now, is that so even with your--with non-
biological or chemical agents or any fire or other police 
issue?
    Chief Maglione. On a local basis, I have no problem in 
communicating with the police. I have no problem communicating 
with EMS. But as we go out of our own local and the outside 
agencies are coming in, that's where a weakness in 
communications exists.
    Mr. Tierney. So you'd need some frequency or frequencies to 
switch to at that point where you could be on the same----
    Chief Maglione. That's right. But it would have to be 
multiple frequencies.
    Chief Torres. Yes. Availability of resources--as they're 
coming in to the city--because we have mutual assistance pacts 
with our surrounding communities. As police officers, we can 
communicate with each other. But different police departments 
have different frequencies. So we need to develop an integrated 
communication system so that I can, at the incident command 
level, understand what resources I have available to me, 
whether it be police, fire or emergency services personnel.
    Mr. Tierney. You don't have anything like that now for your 
area?
    Chief Torres. Not at the level that we're expecting, you 
know--this incident that happened on Friday, it full taxed our 
systems. And we--that was one of the shortcomings that we saw; 
you know, the ability to know what resources we can apply and 
what resources are coming into the city.
    Mr. Tierney. OK. Thank you.
    Chief Maglione. Congressman.
    Mr. Tierney. Yes?
    Chief Maglione. Just as an example, that vehicle over there 
would be an on-scene incident command vehicle and has a vast 
array of communications abilities. However, that's on-scene. 
When you go now back to the communications center, that's where 
the weakness now begins.
    Mr. Tierney. So this is better than what you have back at 
the ranch?
    Chief Maglione. What that has there has a vast array, but 
for an on-scene. It doesn't reach and help. The emergency--the 
operation communications centers are what would have to be 
beefed up. I'm lucky. I have that vehicle. Most communities do 
not.
    Mr. Tierney. OK. Thank you.
    Mr. Gecewicz. Mr. Congressman.
    Mr. Tierney. Sure.
    Mr. Gecewicz. The concern we have in public health is we do 
not even have radios. We, other than being at the table with 
the police chief and the fire chief, I did not have any direct 
communication with my office other than a telephone line. And 
we all know through Oklahoma and other national disasters, as 
soon as that happens, when you have NBC and CBS and ABC come 
in, all the telephone lines go down and they control 
everything. That's why this need for the Internet communication 
for public health is a major issue that we have and a secure 
line possibly through a disk or cell so that we could bounce 
off a satellite and have communications because even our cell 
phones would go down. And there were no communications--I have 
196 staffers, 4 physicians; 95 percent of my staff are masters 
or above. I have 85 nurses. I couldn't even utilize them if I 
had to because there was no way of getting to them through 
communication other than doing a run like Paul Revere.
    Mr. Tierney. Now, this particular problem you see as an 
issue not for the local authorities to resolve or the State? 
You think this is a Federal----
    Mr. Gecewicz. That is definitely a Federal concern. Thank 
you.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentlemen.
    I found Friday almost overwhelming when I walked into the 
room. I expected to see four tables, six people around each 
table, a room, you know, the size of maybe two classrooms. And 
that whole area was just packed with very, very dedicated 
people on the Federal and State level. And it was almost 
overwhelming to see the cooperation that I saw between the 
various groups.
    But I also realize that the task is immense. When I was 
talking with EMS fellows, they said they lost 58 of their 
people in the first response, 58 people killed or, you know, 
just incapacitated, and not even knowing it. So the first line 
of defense because the second wave of victims.
    I was struck by if this committee did nothing else--and, 
obviously, it was the Office of Emergency Management that did 
it. But, if nothing else came from this, just going through 
that process, that day-long event, had to have been very, very 
helpful for this area. And it makes me think that first on my 
list is to see ways to fund more of these exercises around the 
country.
    Now, when you started, each of you went through your 
various lists of things. I found myself most touched by the 
one, ``Who do you call?'' I mean, in other words, this disaster 
has happened. Who do you call?
    Now, maybe--I'm interested to know if all of you share in 
that feeling. I'm going to go right up the line.
    Chief, do you have a sense that there's someone you need to 
be able to call that you don't know how to get in touch with? 
Is that a problem for you?
    Chief Maglione. No. That's in place. I mean in our--in the 
local community. It starts at the local. Then we declare an 
emergency, it goes off, hands off to the State.
    Mr. Shays. OK.
    Chief Maglione. And the key is, though, we have to know 
what resources are out there or have to pass the message ``We 
need this'' and then it has to pass on through the system so it 
arrives.
    Mr. Shays. OK. Chief Torres.
    Chief Torres. For Bridgeport, we have an emergency 
operation plan. So when we, as first responders, police 
officers, we set up our first incident command at the scene. If 
it digresses or it escalates into a situation where more 
resources are called, then that's where the EOC comes in. So we 
have a plan in place. It's when the other resources start to 
come in, when it digresses or escalates into a situation where 
we need outside resources, when we start calling in for our 
MAP's, our mutual assistance plans, and we start calling in for 
the State or Federal. That's when the situation becomes a 
little bit more tricky. And, again, that's where we need the 
training and experience of these exercises to keep us going.
    Mr. Shays. Mr. Halaby, I make the assumption that you're 
going to turn to your chief of police and your chief of--fire 
chief and then you're going to be, what, seeking guidance from 
them?
    Mr. Murphy. That's correct. And they strongly suggested 
that they be afforded an updated roster from the Federal level 
through the State right down to the local level as to people 
they could call and their beeper numbers and fax numbers so 
they could keep that readily available in the case of an 
emergency.
    Mr. Shays. I make the assumption that the--that you're 
going to call on Mr. Appleby and you're going to say--that's 
ultimately--and, Mr. Appleby, we haven't heard from you.
    But, Mr. Murphy, my general point would be you have a 
little more resources than the Town of Trumbull has and you 
have people in place who are focused on this as their full-time 
effort.
    Mr. Murphy. That's correct. Yes. I may have been the one 
that made the suggestion about knowing who to contact. I think 
that we certainly have the roll-out of notifications throughout 
the State levels. I think the issue might have been suggested 
that should terrorism take advantage of the high volume of 
toxic material that comes through Bridgeport, that we do not 
know precisely who would we call. And these, of course, have 
their own registration and identification at the Federal level.
    Precisely who knows what is on that shipment and what the 
volume is? We don't know who that person would be that we would 
call to find that out to make those decisions within the first 
hour. We would certainly roll out the request of information 
through probably a whole host of agencies attempting to get 
that, DOT, et cetera. But I think that's something that we 
would need to learn those protocols.
    Mr. Shays. Given that you're in the crossroads of so much 
traffic, whether hazardous material was a result of a terrorist 
or just an accident, the challenge is basically still the same. 
And so I would imagine Bridgeport began to think about this a 
little sooner than some other communities, was forced to. Just 
like a city like Chicago or New York has had to.
    Mr. Murphy. Yes.
    Mr. Shays. But, Mr. Appleby, I'd be curious to have you 
just kind of tell me--you have a crisis and you have a 
consequence management. Do you have--the FBI looks at it one 
way. The fire department looks at it another. The health 
department looks at lives to be saved. Not that we're not--
we're all concerned about it. But the FBI sees a crime. What do 
you see when you see this event? What were you thinking?
    Mr. Appleby. Well, I think the biggest--the biggest problem 
in emergency management that you face is tying everybody 
together. It's--there's a lot of good plans out there. It's 
just a fact of pulling them all together into one unified plan. 
Like most of our colleagues have said, working together, 
training together, exercising together. This was a great 
opportunity for us because we actually took the time to look at 
our plan and said, ``Does this work? Does this not work?''
    We might think it might work. And most of us might also 
understand that when you're on the scene of an incident, your 
plan that you think is the best plan is not going to work and 
you might have to go through four or five different other 
attempts to minimize a situation.
    I think another big point about the who is in charge, where 
the resources are coming from, in the emergency operation plan 
that's required through FEMA--and each town and municipality is 
required to have this under Federal and State laws--that we 
must understand that one unified plan will work elsewhere. 
Demographics are different. As a large city of Bridgeport, 
again being the big brother of a lot of small towns, our plan 
might be different from other towns as far as resources, as far 
as manpower.
    The plan itself could be the same. To know where--what 
steps of the process the Federal Government's going to tie or 
the State's going to tie in--if we, like most of my colleagues 
said, are not going to be able to get the resources within the 
first hour or two or are not going to have the devices in the 
first hour or two, it makes jobs a lot more difficult to handle 
when we're doing in-place shelter and where we're evacuating 
schools or we're telling people to go here. Once they start 
seeing--and I think on a public level, they start seeing a lot 
of the first responders are now--there's a lot of chaos, the 
media now grasps that and it causes more of a problem.
    So I think if we all start working together from a Federal 
right down to the local level in trying to unify our plans--we 
have a lot of tools as far as knowing who to call, where to get 
the resources. We--myself as an emergency operation center, we 
would contact the State. The State will then provide us with 
information in regards to when these resources will be readily 
available, how quick they come onto the scene, so on and so 
forth.
    I think it runs into a problem when you start, again, going 
into the 6, 8, 12-hour radius that, again, the scene is over at 
that time.
    Mr. Shays. OK. The question still on the table is, is there 
any question of who you have to call? Are you a resource that 
doesn't need to call anyone else?
    Mr. Gecewicz. Well, Mr. Chairman, I guess the summation--I 
feel like a Sunday afternoon coach coaching a football or a 
baseball team or a basketball team from my television because 
I'm not at the playing field. What I mean by that is I can call 
Dr. Satcher, the General Surgeon, I could call Dr. Baker from 
CDC or Secretary Shalala. I have the direct phone numbers, 
communications and everything else. But I don't have a phone. 
And, if anything, I need 35 cents to go to the public phone to 
make the phone call. That's the concern. And I'm being 
realistic. And I don't mean to be----
    Mr. Shays. Well, let me just be the devil's advocate a 
second. I mean an emergency happens. You have, for instance, 
the Bridgeport Fire Department command post. I mean there are 
places where you can go. I'm not sure that you need to have a 
command post.
    Mr. Gecewicz. No. That's not the case, Mr. Chairman. What 
I'm speaking about is the utilization of 196 trained 
professionals. I have doctors and nurses. I can't get a hold of 
them.
    Mr. Shays. OK. But let me just ask you, is this an 
insurmountable problem or is this just an easy--I mean can you 
be talking with Mr. Appleby and could you guys be resolving 
this or does something have to happen on the State or Federal 
level to resolve this one?
    Mr. Gecewicz. Nationally, the Public Health Department are 
never tied into the communications. And the reason being is 
most communities, like in Massachusetts, for example, parks, 
recreation are all underneath the chief administrative--or the 
Board of Selectmen. Unfortunately, public health is always 
separate.
    So, therefore, when appropriations come down for equipment 
such as radio communications, telephones, it goes to those 
through the administration, not to public health or the School 
Department. The School Department sits independently as does 
Public Health sit independently.
    So that all the trained staff that I would have that would 
be able to assist at the front line I couldn't get to if the 
telephone lines went down. If you had a hurricane and there was 
no phone lines, I might have 196 people in one building, but I 
couldn't even speak to them.
    Mr. Shays. OK. Let me just say to you that I think it's a 
very important point that you make that becomes very real from 
this exercise. And, fortunately, I think it's a solvable 
problem and which we--what you're telling this committee is we 
need to see it's the same challenge elsewhere. And you're 
pretty convinced it is. And I think you're probably right.
    What I think would have been interesting is if you didn't 
have an explosion on the Amtrak train but, instead, the 
hospitals all of a sudden started to notice that they were 
having these illnesses and they didn't even know where they 
were coming from.
    Now, we all around the country have people who are 
continually on a daily basis checking with hospitals to see if 
they have some kind of unexpected type of event that's just not 
the norm.
    And so, Mr. Carden, let me just ask you this question. And 
Ms. Winters. Does that exist in this area? I mean are we--are 
you in communication with--is there communication between both 
hospitals? Is the Health Department checking periodically to 
say ``Is there any type of disease, virus, that's showing up 
that we just think is a little unusual?''
    Mr. Carden. I can say quite honestly, yes, there is. And, 
in fact, with the big flu epidemic we had recently in January, 
February of this year, the hospitals, Health Department, as 
well as the hospitals in the region and the State, checked with 
each other for a number of issues. One is bed availability. If 
we run out of beds and places to put patients, we want to know 
who can take care of those patients nearby and then work with 
EMS to transport those patients to the appropriate facility. So 
there is communication back and forth.
    Mr. Shays. Ms. Winters, any comment you'd want to make?
    Mr. Carden. Oh. I'm sorry.
    Ms. Winters. In addition, the communication that we would 
be getting from the scene, in this particular situation this is 
one of the areas that was of concern, is that the first 
responders, the police, the fire, they had no idea what, 
indeed, may have happened. They had no way of detecting what 
was there. So the hospitals were being called upon to base an 
impression as to what they might have been exposed to based on 
symptomatology.
    Providing that basis of a link back to the first responders 
to give them appropriate screenings, appropriate tools to 
decipher what was going on out there, we happened to be lucky. 
It was a garlic smell that was fairly prominent and 
identifiable as a mustard gas. But if it was a bio--a virus 
that had exploded, that we wouldn't get this for 2 or 3 days 
down the road. And then at that point, we'd be looking to use 
resources of public health and access them from that 
perspective.
    Mr. Shays. Let me just say--I really do want to get on to 
the next panel. And I want my staff, both staffs who were at 
the event on Friday, to see if they have any questions.
    But I think every one of you knows what role you have to 
play as it relates to investigation of a crime, keeping order 
and so on, dealing with the hazardous event from the fire 
department standpoint, dealing with the health consequences.
    But is there a conviction on the part of all of you that 
you can do this as a team or do you need one person in charge 
giving orders? In my office, if I have two people in charge, 
sometimes no one is in charge. So I always like to have one 
person ultimately that has to take the responsibility. Does 
that ultimately become the mayor, the first selectman? Does it 
ultimately become the Governor? I mean help me through, without 
spending a lot of time on this--who wants to jump in? Yes.
    Mr. Murphy. Congressman, we've had some occurrences in 
Bridgeport where we've had to operate the EOC. And, quite 
frankly, in my experience we do so on a team discussion basis, 
a consensus of ``What's the next step? What do we know? And 
based on that, what are the options? What's the next step?''
    When it comes down to--since these folks are all 
independent and strong professionals, you're right, if there's 
a call to be made, it's made by the executive officer of the 
city, which is the mayor, in terms of making a determination as 
to an appropriate course of action or requesting the police or 
fire to take--or health to take an appropriate step. So 
that's--the executive is charged by statute and by local 
ordinance with those authorities, powers. But it's a team 
exercise.
    Mr. Shays. OK. Any other comment?
    OK. Larry, you had a question?
    Mr. Halloran. Yes. Thank you.
    The point was made during Mr. Wiltse's presentation about 
training, that right now this training is viewed as extra and 
has to be added on and you've got to backfill the position and 
it's difficult to sequence and arrange it. What can you tell us 
or how can we help you integrate this training in the baseline 
curriculum, medical school, for example, police and fire, so 
this isn't extra but it's part of the training that everybody 
goes through and that we don't have the problem with 
backfilling and sequencing and making this extra effort?
    Mr. Gecewicz. Well, if I could speak on the public health 
side? The American Public Health Association has, through its 
national programs, training specifically through air quality, 
bio-terrorism. They actually have a subcommittee. This annual 
meeting will be held in Boston. So I would suspect that the 
people in the Greater New England area could participate.
    However, there are some States that will not afford 
appropriations so that staff members can leave the State nor 
give them the training time. For example, in Massachusetts, you 
cannot leave the State of Massachusetts for any capital 
purposes and there are no moneys appropriated other than local 
training. That has always been a hindrance. And I know that's 
the case in three other States.
    Chief Maglione. In the----
    Mr. Shays. OK. I'm sorry----
    Chief Maglione. In the area of the training, at the present 
time in the area of terrorism, it's a train the trainer that 
came out of the National Fire Academy under FEMA. And that's 
wonderful. But in the fire service and in the police service, 
there is so much ongoing training that goes on on a daily basis 
that what we also need is the ability for someone to come in 
from the outside and provide the training or for us to be able 
to take a number--and this would require funding. And you 
talked about backfilling--and to send people to a central 
location or regional location where this training could take 
place.
    And the training that we're talking about and the command 
function is not just related to terrorism. It's related to all 
risks. So it would be functional in many different ways.
    Chief Torres. That's exactly the same thing with the police 
service. You know, as far as training police officers, it's--
we're in an ongoing training because it's our mandate that we 
recertify ourselves. So this terrorism training is something 
that we also do as well.
    What's important is to bring all the specialties, all the 
groups of people, together in a unified way so that they can 
learn the information and be on the same page at the same time.
    Ms. Winters. From the hospital and health perspective, the 
training that we have is our basic assessment and understanding 
hazardous materials, understanding that the communication 
that's going to take place currently doesn't exist. There's no 
standard. There's nothing that is required to be taught in any 
of the training programs. The EMT programs and the paramedic 
programs do require familiarization, but that doesn't 
necessarily extend to the hospital personnel.
    Mr. Carden. Just to add on to that, certainly the EMS 
programs do have some basic training and certainly require a 
great deal more. And the drill Friday showed us that clearly. 
In-hospital staff certainly need that as well. The folks in the 
emergency departments and the folks who treat people on the 
floors need to know what they're looking at.
    And just as--I'm going to add on beyond on our own scope, 
the general public probably needs some information on various 
things like this. And it's not going to avoid widespread panic, 
but it may keep it down just a little bit.
    Mr. Shays. Thank you. I missed the last point you made. 
Would you just make the last point again?
    Mr. Carden. I think it's probably not a bad idea that we 
have some general information for the public on issues like 
this so that if something does occur and someone hears a boxcar 
full of something has opened up, you're not going to have a 
widespread panic, people knocking down hospital doors who 
haven't been exposed or haven't seen anything of that.
    Mr. Shays. Thank you very much.
    Is there anything that anyone would like to say before we 
conclude? I thank----
    Mr. Halaby. Yes.
    Mr. Shays. Yes.
    Mr. Halaby. Mr. Congressman, I'd just like to mention one 
thing on behalf of the small towns. It's very difficult for a 
small town to find funding on its own to get this necessary 
training. And it was stressed to me that the interdisciplinary 
training, as the chief just mentioned, is critical for small 
towns to understand how everyone relates to one another through 
the experience. And we'd appreciate being able to obtain some 
funding to educate our people.
    Mr. Shays. OK. Thank you very much.
    Mr. Halaby. Thank you.
    Mr. Shays. We thank all of you for your participation on 
Friday and your participation today. Thank you. And for all the 
good work you do. You're on the line of fire.
    I'm absolutely convinced there will be a terrorist attack, 
be it biological, chemical or nuclear. We don't know where it's 
going to be. It could be on more than one occasion. And, yet, 
we all have to be prepared for it. And I'm grateful you're all 
there. Thank you very much.
    Mr. Shays. I'd call on our next panel and ask them to 
remain standing so that we can swear them in. Major General 
William Cugno, Adjutant General, Connecticut National Guard; 
Dr. Henry Lee, Commissioner, Department of Public Safety, State 
of Connecticut; Dr. Garcia, commissioner, Department of Public 
Health, State of Connecticut, Mr. Arthur Rocque, commissioner, 
Department of Environmental Protection, State of Connecticut; 
and Chief Wayne Sandford, Connecticut representative, New 
England Fire Chiefs, East Haven Fire Department in East Haven, 
CT. So it goes Cugno, Lee, Garcia, Rocque and Sandford.
    Thank you. Do we have everyone here?
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    Note for the record that all our witnesses responded in the 
affirmative.
    And we will go as I called you. I guess that would, General 
Cugno, you'll go first and then Dr. Lee and then Dr. Garcia and 
then Mr. Rocque and then Chief Sandford. Great to have all of 
you here. Thank you for being here.
    General.

     STATEMENT OF GENERAL WILLIAM CUGNO, ADJUTANT GENERAL, 
                   CONNECTICUT NATIONAL GUARD

    General Cugno. Good morning, sir.
    Mr. Shays. Good morning.
    General Cugno. Good morning, Mr. Chairman, Representative 
Tierney. On behalf of the nearly 6,000 men and women who 
comprise the Connecticut National Guard and the State Military 
Department, I want to begin my thanking you for inviting me to 
testify and participate in a very important hearing on 
``Domestic Preparedness Against Terrorism: How Ready Are We?''
    As the Adjutant General of Connecticut, I am entrusted by 
the Governor with the authority necessary to carry out all 
provisions of our general statutes regarding the Military 
Department, the Connecticut National Guard and the Office of 
Emergency Management.
    I serve as the principal advisor to the Governor on 
military matters, emergency operations and civil support. I act 
as the commanding general of the Connecticut National Guard.
    And as the adjutant general, I have two main 
responsibilities. My Federal responsibility is to prepare the 
Connecticut National Guard's units and serve as the custodian 
of the CINC's forces for when they're Federalized by the 
President of the United States. In my State capacity as 
adjutant general, I'm the senior emergency management official 
for Connecticut. I exercise this authority through the 
Connecticut Office of Emergency Management.
    Connecticut, along with 26 other States, has the Office of 
Emergency Management organized within the Military Department. 
The OEM serves as the principal liaison and coordinator to the 
Federal Emergency Management Agency known as FEMA.
    In our State, we divide the State into five emergency 
management regions. Each regional office has a relationship and 
serves as the principal liaison and coordinates to the cities 
and towns within those areas.
    The Military Department currently develops unified 
emergency operation plans for a number of potential 
emergencies. We maintain and implement plans for nuclear 
preparedness, safety, natural and manmade disasters and civil 
disturbance.
    In recognition of the uniqueness of each State, I offer my 
comments as specific to the State of Connecticut. In 
Connecticut, emergency response continues--contingencies mirror 
the Federal response plan and most State agencies have a role 
in this particular plan.
    The Governor's role is clearly outlined in both the U.S. 
Constitution and the Connecticut general statutes. The Governor 
expects and appreciates the efforts of the Federal Government 
in preserving the welfare of our citizens and the 
infrastructure of our communities. He is also aware of the 
evolving threat of domestic terrorism and weapons of mass 
destruction that now face our country.
    Ultimately, during the emergencies, the Governor is 
responsible for the restoration of normalcy to the citizens of 
his State.
    Before I begin my remarks on the status of domestic 
preparedness, I must commend Congressman Shays and the National 
Security Subcommittee for taking the time to come into the 
field and hear from those who are truly at the forefront of 
this battle. We thank you for this.
    It is my hope that the exercise the Connecticut Military 
Department and the city of Bridgeport designed and conducted 
will help focus the need to get critical resources to the 
local, State and first responders.
    We learned clearly from the Park City terrorism exercise 
that there is insufficient detection, decontamination, 
communications and personal protection equipment on the front 
lines.
    Additionally, first responders in the local and State 
agencies lack access to full training and exercise resources. 
Without the State and Federal financial assistance of the 
Connecticut Office of Emergency Management, this exercise would 
not have been possible. All exercise participants unanimously 
agreed that more exercises are sorely needed. And it is my 
commitment to design and execute as many as possible within our 
current limited resources.
    In addition to insufficient resources, we are certainly 
confusing our local officials with too many agencies with too 
many roles. Terrorism incident recovery must remain based on 
the Federal response plan and utilize established emergency 
management channels to move assistance to municipalities, much 
like we heard in the last presentation. This is no time to 
scrap a well-known responsive plan.
    Simply put, as a Nation we're not focusing our procedures, 
agencies, technical capabilities and resources on assisting 
that very important local incident commander. This is 
especially true when you realize that $9.2 billion was spent 
throughout 40 Federal agencies on terrorism preparedness last 
year alone.
    In August 1999, the National Guard Bureau submitted a 
Weapons of Mass Destruction Report to Congress. The report was 
intended to facilitate an improved level of preparedness for 
States and municipalities. The report identified many 
initiatives. I'd like to discuss just two of those.
    One of the initiatives dealt with resident and distant 
learning training. With the help of Congress, the National 
Guard can continue to expand the national network of Distant 
Learning Training Centers that we currently have. Though 
expanded, the utilization of these centers has not been 
utilized, either for weapons of mass destruction or other 
terrorist type training.
    Another initiative that was highlighted in the study was 
the need for community readiness exercises. Community exercises 
are an important part of an effective training program. These 
exercises should be conducted with local and State procedures 
down to the municipality levels and will be established as a 
base line for readiness. And they also serve to identify needed 
training and requirement validation.
    The National Guard in the State and within the community 
should be resourced and responsible to conduct this type of 
training.
    I offer my concern that unless the distribution of Federal 
assets is coordinated and prioritized, it may become a program 
of haves and have-nots to those that it is intended to assist.
    Specifically as an example, I call attention to the 
Department of Defense's Domestic Preparedness Program. This 
program provided valuable ``Train the Trainer'' type 
instruction to civilian first responders. It targeted 120 
cities throughout the Nation. Although the Massachusetts cities 
of Springfield, Worcester, Boston, and Providence, Rhode 
Island, were selected for participation, not one Connecticut 
city was selected.
    I also point out the Governor's concern for a lack of an 
assigned weapons of mass destruction or civil support team here 
in the State of Connecticut. These teams formerly known as the 
RAID teams, like the one that we see demonstrated or displayed 
throughout this hall, are National Guard assets intended to be 
quickly deployed to technically advise the onsite incident 
commander and provide onsite laboratory analysis. A total of 27 
teams have been allocated to date. Connecticut has not received 
or been authorized a team.
    Earlier in my testimony I stated that ultimately it is the 
Governor that is responsible to restore normalcy to our 
residents, to direct a rapid response to save lives. Resourced 
properly, our National Guard can quickly respond to a local 
weapons of mass destruction incident and help protect first 
responders and the public from difficult times, to detect 
chemicals and biological agents in support of the incident 
commander or the first responders onsite.
    It is the position of Governor Rowland, the Adjutant 
Generals Association of the United States, the National Guard 
Association of the United States and myself that a weapons of 
mass destruction civil support team be authorized and funded 
for each State within the continental United States.
    Once again, Mr. Chairman, I thank you for the opportunity 
to testify before the committee today. I'd be happy to answer 
any questions that you have.
    I'd also like at this time just to additionally thank you 
on behalf of all the members in Connecticut for the outstanding 
work that your staff has done in cooperation with our Federal 
plan and the assistance that it's rendered in our legislative 
actions.
    Thank you very much, sir.
    Mr. Shays. Thank you, General. General, you have been a 
pleasure to work with. And my staff has appreciated the 
opportunity to work with you and your staff. And, again, to 
thank you publicly for helping to fund that exercise. That 
was--you made it happen. So thank you.
    [The prepared statement of General Cugno follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.028
    
    [GRAPHIC] [TIFF OMITTED] T8547.029
    
    [GRAPHIC] [TIFF OMITTED] T8547.030
    
    [GRAPHIC] [TIFF OMITTED] T8547.031
    
    Mr. Shays. Dr. Lee.

  STATEMENT OF DR. HENRY C. LEE, COMMISSIONER, DEPARTMENT OF 
                         PUBLIC SAFETY

    Dr. Lee. Good morning, Congressman Shays, Congressman 
Tierney. I want to first thank you both to provide me this 
opportunity to testify in front of the hearing.
    An act of terrorism is not only the direct physical action 
caused by an individual or a group, but is also the 
psychological weapon which threatens the quality of life for 
every citizen in this State and also in our country.
    Last Friday's exercise was a successful one. I want to 
thank all the personnel who participated in this exercise; a 
job well done. I also want to thank you for your leadership and 
support of this important mission.
    After last Friday's exercise, we noticed there are some 
important things we have to pay attention; that's the first 
responders. The quicker the response with the containment of 
any device, the better chance we will have.
    The special training and special equipment for the law 
enforcement, police, fire services, hospital and emergency 
services personnel to respond to those events are urgently 
needed. Additional training and planning has enabled us to 
manage not only actual criminal action but threat of such 
action of fake devices, with a minimum disruption and impact of 
our community.
    The State police, we cover almost two-thirds of the State. 
Also, we're the primary law enforcement agency in approximately 
half of the 169 towns and communities in our State. So our 
department not only is supporting agency, also the first 
responders.
    The State Police Emergency Services Unit is responsible for 
providing bomb squad response to 166 towns. In 1999, we 
responded to 419 calls. Those calls were a variety of 
suspicious package/device, but do consist of 50 live improvised 
explosive devices.
    Also during the last year, we were responsible for five 
threats of biological weapons and one attempt to create a 
deadly toxin, Ricin.
    This event--those events are becoming more prevalent 
because of the increase of public and media attention to the 
subject area and the limited ability of the first responder to 
safely identify and to mitigate those threats.
    Our emergency unit provides 24-hours-a-day services. And 
average response time is about 1 hour. The response provides a 
minimum disruption to the normal activity of the citizens of 
the State.
    In addition, our traffic squad, our hazardous mat squad, 
our fire marshal's office, also the forensic laboratory are 
also ready to assist any State, Federal, local requests for 
emergency services.
    We know the response time is so important. So the 
department took the initiative and Governor Rowland and the 
Connecticut State Legislature also assist to authorize a 
special bonding package to build an ESU facility in Cheshire. 
That's going to be a centrally located facility so we can give 
a shorter response time to handle all the emergency requests to 
the State and local community.
    The Federal Government has been successful in warning of 
the possibility of domestic attack involving weapons of mass 
destruction. The Federal response to such an event is well-
planned. However, just like General Cugno cited, there are 120 
cities throughout our country to be funded for training for 
this domestic terrorism and weapons of mass destruction. There 
is no city in Connecticut included in that plan.
    In addition, there is no provision to provide the State and 
local agencies with additional equipment and training for such 
response.
    As a law enforcement agency and the first responder, I 
would request assistance of the Federal Government to consider 
the following. The first is additional training for all the 
agencies. Second, to provide the necessary equipment for the 
responding officer. Myself responded to quite a few incidents 
before. When the Federal investigators show up, they're like 
the man from space with all kind of gear. When we respond, we 
have nothing.
    This year, about a month ago, 2 months ago, in West 
Hartford we had an incident. The whole State--State police only 
have few portable suits and one testing kit. That's why it's so 
important which the committee can consider those.
    In addition to that is to provide the equipment for 
forensic laboratory to handle the scene and collect evidence 
and to put those criminals behind bars.
    Thank you very much.
    Mr. Shays. Thank you, Dr. Lee.
    [The prepared statement of Dr. Lee follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.032
    
    [GRAPHIC] [TIFF OMITTED] T8547.033
    
    [GRAPHIC] [TIFF OMITTED] T8547.034
    
    [GRAPHIC] [TIFF OMITTED] T8547.035
    
    [GRAPHIC] [TIFF OMITTED] T8547.036
    
    [GRAPHIC] [TIFF OMITTED] T8547.037
    
    Mr. Shays. Dr. Garcia.

  STATEMENT OF DR. JOXEL GARCIA, COMMISSIONER, DEPARTMENT OF 
                         PUBLIC HEALTH

    Dr. Garcia. Good morning, Chairman Shays.
    Mr. Shays. Good morning. If you moved it on the other side 
since you're kind of--that would be great. Thank you. That's 
great. Thank you.
    Dr. Garcia. Like this?
    Mr. Shays. That's perfect.
    Dr. Garcia. OK. Good morning, Chairman Shays and 
Congressman Tierney. My name is Dr. Joxel Garcia. I'm the 
Commissioner for the Department of Public Health, State of 
Connecticut. And I thank you for the opportunity to talk about 
bio-terrorism. I'm going to be very brief. So----
    Bio-terrorism is a priority for Governor Rowland's 
administration, giving Connecticut's unique characteristics and 
location, industry, nuclear power plants, military bases and 
also our universities, very successful universities, especially 
in our basketball teams. So it's not if we are going to have an 
event like this. It's when it's going to happen.
    I'm going to limit my testimony to matters related to 
public health in terms of domestic preparedness, how prepared 
the Connecticut Public Health community is and ways to improve 
Federal support of local and State efforts.
    In terms of assessment of Federal efforts to combat 
terrorism, our department and Connecticut has benefited from 
Federal funding. We just received a grant from CDC for the 
amount of $717,000. Those funds were critical to develop the 
health alert network and the distant learning program and also 
to upgrade our lab, our public health lab, to handle infectious 
disease agents related to bio-terrorism.
    At the same time, when we received this funding, we were 
able to identify some funding needs and some gaps in our State. 
Several positions to develop a full State plan are needed. We 
need full-time bio-terrorism coordination, staffing to enable 
development of epidemiologic surveillance for outbreaks of 
unusual illness. And we also--bringing back the point that was 
mentioned before, develop and maintain a network of emergency 
room providers for detection and rapid reporting of unusual 
clusters of illness.
    We also have to develop educational materials and response 
scenarios relating to the full spectrum of agents that could be 
used for bio-terrorism. We also need a state-of-the-art State 
lab that will be able to deal with any bio-terrorism crisis or 
event.
    In terms of how we see the appropriate role of Federal 
agencies in both crisis and consequence management, we think 
the Federal Government's involvement in domestic preparedness 
is essential and developing models of educational and response 
materials. We need to assure minimum standards and capacity, 
not only statewide but nationwide.
    The Federal Government should assure and manage us with a 
stockpile of vaccines and antibiotics for adequate supplies for 
all the States, and the ability to mobilize resources, 
expertise and special equipment to assure that capacity, also 
to help in criminal investigations.
    How we see the State and local role, we see ourselves as a 
crisis detection, initial response and ongoing management can 
be best done at the local and State level. Detection and 
investigation of outbreaks of illness, medical management of 
persons exposed and/or injured in a terrorist event, 
communication to health care providers and entire population, 
monitoring the events that are happening and collaboration 
between the State and Federal personnel is critical. And no 
simply formula for who is in charge has been presented.
    The State of preparedness in Connecticut. I think 
Connecticut right now, we think--we're sure has been closer now 
than ever to be prepared for bio-terrorism event. We have been 
getting some experience with the events such as Y2K, the West 
Nile Virus and others. But still, not all needs have been met.
    I think planning and coordination on a State and local 
level is very essential. Assessment of needs at all levels is 
also essential. And in terms of the results of Friday's 
exercise, I think we need a better comprehensive State plan, a 
need for more training. It has been mentioned before. We need 
better coordination, an excellent way of coordination between 
the State agencies.
    Hospital preparedness is a big issue. I think we have to 
work in a better hospital preparedness. And in terms of 
proposals to improve the Federal support, I think, like 
everybody has mentioned before, we need funding from the 
Federal Government for--to support all identified needs. 
Federal leaders must continue to work the States to bring them 
up to minimum expected preparedness status. And Federal 
Government agencies must continue to involve public health and 
other appropriate stakeholders in all future planning.
    So I thank you for this opportunity. And I would be 
available for questions.
    Mr. Shays. Thank you, Dr. Garcia.
    [The prepared statement of Dr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.038
    
    [GRAPHIC] [TIFF OMITTED] T8547.039
    
    [GRAPHIC] [TIFF OMITTED] T8547.040
    
    [GRAPHIC] [TIFF OMITTED] T8547.041
    
    [GRAPHIC] [TIFF OMITTED] T8547.042
    
    [GRAPHIC] [TIFF OMITTED] T8547.043
    
    [GRAPHIC] [TIFF OMITTED] T8547.044
    
    [GRAPHIC] [TIFF OMITTED] T8547.045
    
    [GRAPHIC] [TIFF OMITTED] T8547.046
    
    Mr. Shays. Mr. Rocque.

 STATEMENT OF ARTHUR ROCQUE, JR., COMMISSIONER, DEPARTMENT OF 
                    ENVIRONMENTAL PROTECTION

    Mr. Rocque. Chairman Shays, Mr. Tierney, good morning.
    Mr. Shays. Good morning.
    Mr. Rocque. My name is Arthur Rocque. My voice is not a 
result of mustard gas. So--I was not at the event on Friday, 
but I do appreciate the opportunity to testify as long as the 
voice holds out today.
    As commissioner of the Department of Environmental 
Protection, I supervise a 24-hour communications response team 
with a mobile lab and a decontamination system. These staff are 
trained to OSHA Level 40 level response. And within a fairly 
short period of time, we can put another hundred contractors in 
the field with the same level of training.
    Last year, for example, we responded to 2200 emergency 
response incidents. In all of these events--and I think a 
common theme that has gone through the discussions here this 
morning--communication is the key. To build on the metaphor 
from this morning's panel, let me suggest and remind you that 
Paul Revere never made it to Lexington, let alone Concord.
    So, if communication is the key, what do we need? We need 
the same equipment. We need the same protocols. We need a clear 
chain of command. We need a clear assignment of 
responsibilities. And if, for example, the Department of 
Environmental Protection is a primary hazardous materials 
responder, we need to be able to participate in the on-scene 
command centers.
    Training is the second key. For example, if you are trained 
to wear and operate in a Level A suit but you don't maintain 
your training and your certification, when the crisis comes, 
you're not going to know what to do or how to do it. So we need 
to concentrate on those who have the need and the opportunity 
to maintain their certification.
    In short, gentlemen, what we really need is we need 
additional training. We need additional resources. It is my 
opinion--I think I share that with many of my colleagues here 
on the panel. It is my opinion that, rather than duplicate 
those efforts up and down, it's more important to concentrate 
them and make them deployable in a real time and real way.
    Thank you.
    Mr. Shays. Thank you, Mr. Rocque.
    [The prepared statement of Mr. Rocque follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.047
    
    [GRAPHIC] [TIFF OMITTED] T8547.048
    
    [GRAPHIC] [TIFF OMITTED] T8547.049
    
    Mr. Shays. Chief Sandford, before you make your statement, 
I just want to say that we're having this hearing, in part, in 
large measure because the firefighters had come to me statewide 
and met with me in Fairfield and had argued about their wanting 
to fund a $5-billion bill down in Washington. And I'm reluctant 
to do that.
    But what I did say was I'd love to be able to target 
funding for specific needs like this. And--but at any rate, 
we're here, in part, because of the request of your men.

 STATEMENT OF WAYNE SANDFORD, CONNECTICUT REPRESENTATIVE, NEW 
                      ENGLAND FIRE CHIEFS

    Chief Sandford. OK. My name is Wayne Sandford. I'm the fire 
chief in East Haven, CT. And I would again like to begin by 
thanking the committee for inviting me to participate.
    If I can in any way convince you to support that bill in 
Washington, I would be a hero in Connecticut's fire service. My 
colleagues and I take domestic violence very importantly. And I 
think as an example to show you how it is in the smaller 
communities, East Haven is about 12 miles in size, 12 square 
miles. We have 26,000 people. Not only am I the fire chief, I 
am the director of emergency operations and I am also the 
chairman of the local emergency planning committee. So in a 
smaller community, many, many people do more and more jobs than 
we are--than you see at the larger facilities or larger cities 
around the State.
    So we're responsible for a broad array of emergency 
services, from responding with EMT's to medical calls, to 
handling incidents on the railroad tracks or to handling 
something on I-95 or something with an airplane crashing. It 
doesn't really matter what it is. We're there.
    And in most of these incidents, we have what we consider a 
golden hour. That first 1 hour that an incident occurs is 
what's the most important. And during that hour, we are calling 
for everyone that we can possibly to respond to those scenes 
because we are a small department. And we rely heavily on the 
State Office of Emergency Management and we rely heavily on the 
State Department of Environmental Protection because we don't 
have anyone else to do those kinds of things. So that golden 
hour is really critical to us.
    In that hour, we need to be able to identify what we have. 
Before we ship our patients into Yale-New Haven Hospital or St. 
Raphael's Hospital in New Haven, it's important that we notify 
them what we have, what we think we have, what these people may 
have. And without any type of detection equipment, lacking to 
identify exactly what we're dealing with, it's extremely 
complicated and becomes more hazardous.
    And you think that maybe in a small town things like this 
don't happen. In my short tenure as chief, in 8 years we've had 
one incident where an individual made a bomb, brought it home, 
told his mother not to touch the bag. She touched the bag and 
blew her arm off. At that incident, we had both the State Fire 
Marshal's Office, DEP and State Office of Emergency Management 
involved in that incident.
    Saturday, I was up in the great city of Boston, walking 
around with my daughter in Quincy Market. My beeper goes off 
and they tell me that we have a bomb incident at one of our 
House of Representatives, State House of Representatives, homes 
in my community. And I'm wondering what's going on. I'm up in 
Boston. I'm trying on my cell phone to get back to them. And 
I'm in an Old Navy store up in Boston.
    And here's my firefighter standing on the street, unable to 
talk to anyone else that's responding to the calls, except for 
the local police department because we can talk locally. And 
I'm standing there and I look at a store aide in Old Navy that 
needs a pair of dungarees in the back room. And that sales 
clerk gets on a headset, on a radio, calls in the back room--
I'm not going to tell you what size I wore--and they run right 
out with this pair of dungarees. And I'm saying isn't this 
ironic? At the same time, my firefighters can't talk to the 
State Department of Environmental Protection, the State Fire 
Marshal's Office that are responding to this bomb incident in 
my community. I'm ordering a pair of dungarees and someone 
could talk to the back room and get me those dungarees. I think 
that's appallable for the fire service that somebody like Old 
Navy that's in business to sell dungarees can--actually has a 
better communication system than we have and we have to deal 
with lives.
    And I think that really targets toward what we need in the 
fire service or emergency management. And that is the front 
line people, we need to have a good communication system. We 
need to be able to talk to DEP. We need to be able to talk to 
the State Fire Marshal's Office and the Office of Emergency 
Management from the scene. We need equipment to do monitoring. 
We have to be able to tell in that golden hour exactly what we 
have.
    And we've taken some of the training that's offered through 
the State Fire Academy. Our State Fire Academy does a great 
job. We have four courses now that are available for weapons of 
mass destruction. But we need to get them out further. It's 
very difficult to train the volunteers. We need more ``Train 
the Trainers'' programs so that I can train my local training 
officer and then provide him with the workbooks so he can come 
home to the local fire department and then train my volunteers 
in the evening hours and then train my small staff of career 
personnel during the daytime.
    So we need additional training. We need additional 
equipment. We need additional communication releasing. You 
know, we're so close to New York City--we can't get frequencies 
in this area. You go down and say, ``I want to apply to FCC to 
increase your ability to move to a different frequency'', you 
can't get a frequency in this part of the country. There aren't 
any available.
    We need to do something with the band widths so that we can 
increase the number of frequencies so that emergency 
personnel--that I can talk to the people that I need to talk 
to.
    And, finally, I would add that we need to do something with 
the Incident Command System. Saturday, when the State Fire 
Marshal's Office arrived in East Haven, they found the Incident 
Command System established and well in place. And I think 
you'll find that in any town across the country where the fire 
department is there.
    We need to train the people from the Department of Health 
so they know who to report to so they can become part of our 
Incident Command System. They need to be trained in Incident--
in ICS. DEP people, the Department of Environmental Protection, 
we work well with them now. They've been trained in Incident 
Command System. We need to train other agencies as well so they 
know how to plug in and fit in to our communication or command 
system.
    I think if I could leave with one line, I would say that we 
must strengthen our first responders and we must strengthen the 
first responders first because they're there. They've got that 
golden hour. And they need a hand to control that incident.
    Thank you very much.
    Mr. Shays. Thank you very much, Chief.
    Mr. Tierney.
    Mr. Tierney. Thank you.
    I guess I'm wondering if part of the problem isn't that 
everything needs to be paid for and everybody wants everybody 
else to pay for it. You know, whether the local communities are 
seen as being the first responders and the Federal and State 
levels are just saying, ``Well, they should have to pay for 
it'' and then, you know, so on up the line. And if that doesn't 
need to be squared away, at least in part----
    General, let me ask you, if you had a so-called RAID light 
team or a civil team or a RAID team here, how would the 
operation on Friday have gone differently?
    General Cugno. First on the RAID light, the RAID light I'm 
not a big fan of. RAID light is only one full-time person, no 
equipment and 22 what they refer to as M-day or part-time 
traditional guardsmen.
    Mr. Shays. That's very light.
    General Cugno. That's much too light. Yes, sir.
    RAID Heavy, what we see here in this room, is the only 
thing that I think has any value for our State or an adjutant 
general or our Governor. The reason is these are very 
professional, very high-tech individuals and they're very 
competitive. You're not likely to get them to be in a 
traditional position on a part-time basis. It's bad enough 
you've got to work real hard to get them on a full-time basis.
    It's a RAID heavy team that is necessary in each of the 
States, like you currently have in Mass. In the New England 
area, just recently one was authorized to Maine.
    Mr. Tierney. Well, how would it have gone differently on 
Friday had you had a Connecticut team that was here? Would your 
operation have gone differently time-wise or----
    General Cugno. Well, since we played real time on Friday 
and none of them currently stood up or have been certified, 
I'll use that, the first 10 that Congress authorized were 
intended to be certified on the first of April 2000. They're 
not. The equipment is not fully fielded. I think the last--some 
more pieces are coming on April 9th according to what I've been 
briefed on from Washington.
    Let's make the assumption that there's a fully capable and 
ready asset RAID team and you had an incident like that. The 
way we operate--in fact, this group here at the table--this is 
a reunion for an emergency situation. This is what we do, with 
a few other players.
    When a town has an incident and immediate first responders 
would deploy, it's likely to be the fire department, that 
individual being in charge. An immediate request would go 
through to the Office of Emergency Management and we would 
deploy. They have a requirement, weapons of mass destruction 
teams, the support teams have a requirement to deploy within 4 
hours. So they're on-scene and deployed.
    If I had one here and it was 2001 or 2002 and it was fully 
certified and trained, that would deploy.
    What they have is the ability to do detection and to do 
analytical work. They assess the situation. One of the pieces 
of equipment soon to be fielded--in fact, the fielding date for 
the Mass one I believe is April 9th--is a mobile laboratory. 
The lab can tell you exactly and precisely what the agent is so 
you know what you're dealing with. So that is the intention.
    Mr. Shays. General, I--but the bottom line, though, and the 
question is I'm not sure Friday would have been all that 
different if you had had a RAID team.
    General Cugno. No. If I had a RAID team--we played a RAID 
team in the exercise, also, sir. Mass RAID Commander was at and 
part of the exercise. So we used as though he deployed for 
Massachusetts.
    Mr. Shays. But took 4 hours to get here?
    General Cugno. Well, yes. But the incident is different 
like this. If there is a deployment in Mass and he is not 
available, you don't have a team. If there are multiple 
incidents in the Northeast, you don't have a team. So I 
question the ability to rely on the team if you don't have it.
    The additional--in other exercises, the agent has been 
dispersed--exercises that have been written and planned and 
executed, the agent has been dispersed into the air. If it 
happened in Connecticut and you're downwind, I'm not sure 
they're going to want to send their team, for obvious reasons.
    I think that the argument could be made, yes, you could go 
and 95--93 percent of the country right now has indicated that 
in 4 hours they can have a RAID team from the current 
locations. I'm not certain that they can deploy within that 
amount of time. And I haven't seen evidence that they can.
    Mr. Tierney. Thank you.
    Mr. Rocque, you made a comment that I want to make sure I 
didn't misconstrue; something about the idea that you thought 
that we ought to be doing things on a more regional basis.
    Mr. Rocque. That's correct.
    Mr. Tierney. So that you wouldn't necessarily invest your 
resources of making sure that every town had all the first 
response items. But you would rather see it focused on some 
place that could get--disperse those towns on a ready basis?
    Mr. Rocque. That is--that's correct. I think that, for 
example, our mobile lab and decontamination system could be 
anywhere in the State within 2 hours at the very outside. 
Obviously, if you have multiple incidents as Major General 
Cugno just suggested, it makes it a little bit more difficult. 
But it is incredibly expensive to run and operate these types 
of field units. And to have one in every single town I think 
would be redundant and overly expensive.
    Mr. Tierney. Thank you.
    Mr. Chairman, all set.
    Mr. Shays. Thank you.
    I don't want to spend a lot of time talking about the RAID 
team. But I am now beginning to wonder what the RAID team would 
have done on Friday and why we need it. So I'm not sure--do we 
have someone here who can basically answer that question? I 
mean--gentlemen, I mean I'm not--do you hear my question?
    General Cugno. I--unfortunately, I can't tell you how long 
it took--we can get an answer just by turning around just for a 
second here----
    Mr. Shays. Sure.
    General Cugno [continuing]. With Mr. Wiltse, who was part 
of it and the exercise facilitator that was here. How long it 
took for the detection of the item would be key.
    Mr. Shays. OK.
    General Cugno. And how quickly they were able to assess 
that.
    Mr. Shays. Why don't we do this? While I'm asking some 
other questions, if you can just leave the table and just check 
that question? I think I'd want the record to be able to 
respond to that. OK?
    General Cugno. OK. Fine.
    Mr. Shays. Thank you.
    I'm a little unclear how you all work. And when you said 
this was a reunion, who is missing from this table? Do all of 
you work with each other on this very issue? I realize, Mr. 
Sandford, you're representing the statewide position. But the 
State officials here----
    Dr. Garcia. We have worked together. We have worked 
together from the Y2K issues to West Nile to readiness for a 
while now. I have been Commissioner only 10 months and already 
I've been seeing these people very frequently now. So----
    Mr. Shays. Fair enough.
    Dr. Garcia. And not socially, sir.
    Dr. Lee. Well, in general, when we have an incident, we 
usually work together, such as weather condition or emergency 
situation. Also, State Police with local police and local fire 
department, we also work together. It's a small State. Any time 
they have a suspicious device, as I indicated to you, we 
basically respond to most of the requests. If a situation 
involves a State emergency related to health, we all work 
together and have a State emergency management center.
    Mr. Shays. OK. The key question is what resources need to 
reside at the local level and what at the State? And I'm 
interested to know--and, Mr. Rocque, you basically are--
obviously, if you can get all resources locally and you can 
afford to and you can train people and so on, you do that. But 
what are the kind of resources that are, in your judgment, more 
likely to--that you would say it's a better allocation of 
resources to doing a regional?
    Mr. Rocque. A lot of this is like looking into a crystal 
ball, unfortunately. And we're never going to know what the 
incident is until after it's happened. I think that's what 
history has taught us.
    I would say that the more unlikely scenarios are best 
responded to, or the more complicated are best responded to, by 
State resources. For example, I used the example of Level A 
suit certification, self-contained breathing apparatus. Our 
folks are trained in those and are recertified periodically. To 
train everybody at the local level for that capability is 
probably not necessary. So those are the types of things.
    I think the mobile lab, for example--our lab has not as 
good capability, perhaps, as some of the RAID units in terms of 
biological analysis but it certainly in terms of chemical 
analysis does have state-of-the-art type equipment. And I think 
that rather than have those deployed locally, you can deploy 
them, in a State like Connecticut that's as small as 
Connecticut, fairly readily at the State level.
    Mr. Shays. Chief, do you want to----
    Chief Sandford. I would definitely agree with the 
Commissioner that--when I said that we need things on the local 
level, I'm certainly not inferring that we need a 
decontamination unit in every community. We've run a number of 
drills in East Haven where we've asked the State Department of 
Environmental Protection to participate so that our people will 
know exactly how that equipment operates.
    On the local level, the type of equipment is something--
meters and monitoring tools so that my people don't become 
those second victims. So that when we respond to that anthrax 
incident, you know, that's distributed on Friday afternoon and 
brought home to the people in East Haven over the weekend and 
Sunday afternoon my medical teams start responding to a whole 
bunch of calls for cold symptoms or flu symptoms, that my 
people know immediately when they start monitoring--when it's 
going it on the calls, that we've got something going on. They 
need a way of determining exactly what that is.
    And the sooner that we know what it is, then the sooner 
that we can communicate that to the hospitals and we can begin 
calling assistance through the State Department of 
Environmental Protection, through the Office of Emergency 
Management. Those are the types of things that we need on a 
local level.
    Not every firefighter in the State of Connecticut, in my 
opinion, needs to be trained in how to operate in a Level A 
suit. I would not agree with that. That's available from a team 
from the State or from a regional team. But we need to know 
what that is as soon as possible.
    Mr. Shays. OK.
    Dr. Garcia, I used to chair the subcommittee that oversaw 
the health, HHS and FDA and Center for Disease Control and so 
in, Institutes of Health. It became very real to me that your 
position is going to become more and more important as the 
years come, go by, with the various viruses that we'll have to 
deal with. Are you being brought into--do we have the same 
problem on the State level that we appear to have on the local 
level with health departments not really being recognized in 
terms of the kind of role they're going to need to play?
    Dr. Garcia. I think what has happened is the uniqueness of 
the State in terms of the local health departments, we have a 
multitude of them and there's not a real regional communication 
center in between all the local health departments. And I think 
that was mentioned before.
    At the State level, meanwhile, we work very closely with 
the institutions and the 35 hospitals that we have in our 
State. There is the Connecticut Hospital Association. And we 
try to not only have good communication but share data and be 
able to relay in terms of any event that happens at the local 
level.
    I think one of the concerns that we have, a significant 
concern that we have, is we need a lab that actually can be 
prepared to deal with all the new viruses and other biological 
issues that are happening. We have had events in which we were 
relying on the CDC or the lab in Atlanta. And there was a 
significant backlog there. So it has to be sent back to us.
    And I think that that's one of the messages that I'm trying 
to send; is that we really need a State lab that can help the 
institutions here, the hospitals here, as well as the local 
health departments.
    We're right now at the beginning of having a network--
that's the HAN, Health Alert Network--in which we can be able 
to have instant access either by way of computers or safe 
communication in between the local health departments and us so 
we can actually use the health departments as our arms to be 
able to inform us much, much greater.
    Mr. Shays. Thank you.
    I'm going to--before we just close out this panel with the 
RAID team, I'm just going to ask this scenario. I'm just going 
to ask two individuals whose responses--Dr. Lee or General 
Cugno. Terrorists have decided that they're going to do one of 
two things. They're either going to steal waste, radiation 
waste, in Millstone 1, 2 and 3 or they basically have decided 
to come in and take over the site and threaten blowing it up.
    And, quickly, does that become--is that a State Police? Is 
that a local police problem? Is that a military problem?
    Dr. Lee. Most likely, the local police responds first. 
Right away, they're going to call us. We would have a SWAT 
team. We'd have the Emergency Services Unit. State Police more 
likely to take over the situation.
    Mr. Shays. OK. And do you--do you have, for instance, the 
plans, the floor plans, of Millstone 1, 2 and 3?
    Dr. Lee. We have all those floor plans, all those emergency 
response plans. And, again, you know, just--planning is 
excellent. And you need additional resources to equip our SWAT 
team. We just--you know, 166 towns need us.
    Mr. Shays. Are you comfortable that they're properly 
guarded by the company?
    Dr. Lee. It's relatively. Nobody can predict what's going 
to happen. We have an intelligence unit in our State police 
working with Federal agencies working on that.
    Mr. Shays. OK.
    Mr. Rocque.
    Mr. Rocque. I thought it would be helpful to point out that 
under your scenario, actually the four of us would be involved 
almost instantaneously. The Department of Environmental 
Protection is responsible for the statewide radiation emergency 
implementation. And we would automatically get in touch with 
Dr. Garcia and his staff and put them on call.
    Mr. Shays. OK. Thank you.
    General.
    General Cugno. I'd have to concur. Definitely, it would be 
a law enforcement one. And I'd be happy to pass that one over 
to the doctor.
    Mr. Shays. Yes. You know, the problem is Mr. Tierney would 
be concerned of whether that event with Millstone 1, 2 or 3 
would ultimately impact the people in Massachusetts. So I would 
imagine that it would become quickly a military concern as 
well.
    General Cugno. Yes. We--one of the plans that the 
Connecticut Military Department and the Office of Emergency 
Management practices deals with Millstone evaluation plans, Dr. 
Lee, the Connecticut State Police----
    Mr. Shays. OK.
    General Cugno [continuing]. And us as----
    Mr. Shays. Good. I'm happy to know that. Let me just have 
you conclude then by telling me what do you think would be 
different if we had had a RAID team locally?
    General Cugno. The exercise revealed--and I'm going by 
lessons learned from the exercise--that the detection and 
decontamination, we had the inability, even with the DEP mobile 
lab. Mass RAID team was never deployed, never got the scene. 
And we had inability to quickly detect or determine what the 
specifics of the agent were.
    Now to specifically answer your question, had we had a RAID 
team fully operational here in the State of Connecticut--and by 
that I mean to acceptable readiness standards--within 1 hour, 
the agent would have been at least identified. The mobile lab 
is but one piece, evidenced by some of the things that are here 
in the hallway.
    Mr. Shays. Let me ask you, why would it have been, though--
I mean what--you have an explosion on a train. What tells you 
that you're going to call a nuclear, biological or RAID team to 
come and get involved? I mean I don't know what would have 
triggered that.
    General Cugno. The incident, people became ill. That was--
there was a buildup to it as people became--that was part of 
the scenario.
    Mr. Shays. Right. But--so you're not going to call them the 
first half-hour, first hour. You really are not. You know? I 
don't think. So I don't think you would----
    General Cugno. I think what happened in the exercise, 
though, was the responders became casualties immediately. The 
first responders, the local fire department and police 
department, responded to the incident. Immediately they became 
casualties. They would certainly deploy the team.
    Mr. Shays. But I'd be interested--I'm going to get to the 
next panel. But you had mentioned that this vehicle here would 
be a helpful vehicle to have. I'm just wondering if a RAID team 
light doesn't have merit. It's just your definition of how 
light do you make it. Obviously, no equipment and one person, 
that's not--that's kind of absurd. But, you know, some 
equipment, five people--you know? So think about it. And I may 
ask you to come back----
    General Cugno. Sure.
    Mr. Shays [continuing]. After the last panel and----
    General Cugno. Yes, sir.
    Mr. Shays. And I don't--I may even ask one or two other of 
your people to join you on that issue. And maybe even some of 
the RAID team people here from Massachusetts.
    So I thank you all. Is there any last question that--yes, 
Chief?
    Chief Sandford. I think Commissioner Rocque definitely 
brought out a point. And that is that there are some excellent 
things out there that could be enhanced rather than starting 
something new.
    And I bring to point one issue. And that is the Department 
of Transportation has a wonderful program called project 
response. And they have this system and they're putting it on-
line. So from a communications center or from a laptop on 
scene, you'll be able to dial in and you give them the number 
of the train and they'll actually be able to tell you what is 
being carried in every car of that train.
    If we were to enhance that program and bring it into the--
maybe the over-the-road haulers, over the highways, that 
certainly would--it's an example of something that could be 
enhanced rather than starting a program anew. And that would be 
something that would be very helpful for us on the scene.
    Mr. Shays. Thank you.
    Any other comments anyone wants to make before we get to 
our next panel?
    I thank you very much. And we'll call our next panel. And I 
think what I'm going to do--Mr. Tierney is going to have to 
leave in about an hour. So we're going to go through that next 
panel and make sure he asks his questions. But I may ask some 
people from the RAID team to join you and let's have a little 
more dialog about that.
    General Cugno. Fine.
    Mr. Shays. So maybe you could get, you know, heads together 
with them.
    General Cugno. I certainly will.
    Mr. Shays. OK. Thank you.
    Our next panel--and thank you all very much. We appreciate 
your help here.
    Mr. Shays. Mr. Bruce Baughman, Director, Operations 
Division, Response and Recovery Directorate, Federal Emergency 
Management Agency; Mr. Robert Burnham, Section Chief, Domestic 
Terrorism, Federal Bureau of Investigation; BG Bruce Lawlor--
that BG is----
    General Lawlor. Brigadier General.
    Mr. Shays. Brigadier General. I'm sorry. General Bruce 
Lawlor, Commanding General, Joint Task Force, Civil Support, 
U.S. Department of Defense.
    Mr. Gary Moore, Acting Deputy Director, Office of Emergency 
Preparedness, U.S. Department of Health and Human Services; and 
Mr. Kenneth Stroech, Deputy Emergency Coordinator, Chemical 
Emergency Preparedness and Prevention Office, U.S. 
Environmental Protection Agency.
    I'm going to ask you all to stay standing and I'll swear 
you in.
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    Note for the record everyone has responded in the 
affirmative.
    I just need to confer with Mr. Tierney just for a second. 
And we'll have like a 1-minute break.
    [Discussion off the record.]
    Mr. Shays. We're going to just go down the list. And we'll 
start with you, Mr. Baughman. And I do appreciate your being 
the third panel and having to wait and so on. I would be 
grateful if you'd be able to, in your testimony, incorporate 
some of the questions and points you've heard to give it more 
relevancy. And, also, if there are questions we haven't been 
asking that we should, I want to make sure we do that.
    So, Mr. Baughman, you have the floor.

STATEMENT OF BRUCE BAUGHMAN, DIRECTOR, OPERATIONS AND PLANNING 
       DIVISION, RESPONSE AND RECOVERY DIRECTORATE, FEMA

    Mr. Baughman. Good morning, Mr. Chairman.
    Mr. Shays. Let me just see. Why don't you move that mic 
over and use the one to your----
    Mr. Baughman. This one here?
    Mr. Shays. Yes.
    Mr. Baughman. OK. Can you hear me?
    Mr. Shays. Yes.
    Mr. Baughman. OK. Good morning, Mr. Chairman and members of 
the subcommittee. I'm Bruce Baughman, Director----
    Mr. Shays. Excuse me. Do you have that mic on? This is the 
first one. OK. There you go. Thank you.
    Mr. Baughman. I'm Bruce Baughman. I'm Director of 
Operations and Planning for the Federal Emergency Management 
Agency. I appreciate the opportunity to appear before the 
subcommittee and discuss our readiness to respond to 
consequences of terrorism. I will focus, as you've asked, on 
the appropriate role of the Federal Government in both crisis 
and consequence management and on the assessment of Federal 
programs to combat terrorism and, finally, on proposals to 
improve the Federal Government's ability to respond.
    FEMA's role in terrorism and all other hazards is twofold. 
First, we provide grants, technical assistance and information 
to State and local government and the fire community. Second, 
we respond to incidents as called upon by State and local 
government.
    The Federal Government is responsible for crisis response--
and I'm going to defer to Mr. Burnham to address our role in 
that arena. I'll confine my remarks to consequence management, 
which FEMA has the lead responsibility under the Presidential 
Decision Directive.
    First off, State and local governments have primary 
responsibility for consequence management. When consequences of 
an event exceed the capability of State and local government 
and FEMA is called upon to respond, we deliver our assistance 
under the Federal response plan.
    This plan organizes 26 Federal agencies and departments and 
the American Red Cross into interagency functions and teams to 
mesh with their counterparts at the affected State and local 
level. This framework enables local, State and Federal 
officials to best use the available resources.
    The Federal response plan has been used to respond to all 
emergencies and major disasters declared by the President since 
1992, including those caused by floods, hurricanes, earthquakes 
and terrorist events, such as Oklahoma City.
    Our ongoing work to strengthen the Federal response plan 
fits the approach that Director Witt has given the agency: to 
focus more on programs that address requirements common to all 
risks and less on programs that address requirements unique to 
one hazard.
    Whether the cause is a hurricane, earthquake or terrorist 
attack, consequences are largely the same; mass casualties, 
property damage and disruption of essential services.
    Building stronger, all-risk response capability reduces the 
impact of hazard-unique shortfalls on the overall outcome of a 
Federal response.
    In terrorism consequence management, the hazard-unique 
requirement we need to address is the capability to deal with 
nuclear, biological and chemical contamination. Certain Federal 
agencies are key to this; the Department of Energy, the 
Department of Health and Human Services, the Environmental 
Protection Agency and the Department of Defense.
    The challenge we face under the plan is getting the right 
hazard-specific resource to the right place at the right time. 
We have a mechanism to do that within the Federal response 
plan.
    The other requirement imposed by a terrorist event is the 
need for coordination between crisis management and consequence 
management. Since Oklahoma City, we have developed a closer 
working relationship with the FBI on the Federal response side. 
Together we have worked with our common support agencies on a 
first and second edition of a Terrorism Incident Annex to the 
Federal response plan.
    This Annex describes the structure and information flow 
which transpires between the two agencies when there is a 
terrorist event. Our relationship is more than just words on 
paper. We have exercised our coordination relationship on two 
major Federal, State and local exercises and on such special 
events as 1996 Summer Olympics, the 1997 Presidential 
Inauguration and the 1999 NATO 50th Anniversary Summit.
    The working relationships and practical experience we have 
gained should make all the difference in the world when we're 
called upon to respond to a terrorist incident.
    To address the effectiveness of Federal programs, two key 
issues need to be addressed. Are State and local governments 
prepared, trained and properly equipped to respond? And I think 
that you got some insightful testimony this morning that shows 
the status of that.
    The second is, are Federal agencies charged to support them 
properly trained, equipped and ready? I'm not sure that there's 
a simple and satisfactory answer. I note that those of us who 
are in the business of consequence management must be ready for 
any hazard at any time. We must strike a balance between all-
hazards programs and programs designed for one hazard. It is 
important for FEMA to maintain that balance.
    I think that strengthening existing systems for all hazards 
has improved our domestic preparedness and response capability 
at each level of government. Consequently, I think that at the 
Federal level we are better prepared to handle any response to 
any hazard than at any time in our history.
    However, I think that there is a real need for a more 
coordinated planning, training and exercise strategy by all 
agencies at all levels of government to deal with weapons of 
mass destruction.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions.
    Mr. Shays. Thank you, Mr. Baughman.
    [The prepared statement of Mr. Baughman follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.050
    
    [GRAPHIC] [TIFF OMITTED] T8547.051
    
    [GRAPHIC] [TIFF OMITTED] T8547.052
    
    [GRAPHIC] [TIFF OMITTED] T8547.053
    
    [GRAPHIC] [TIFF OMITTED] T8547.054
    
    [GRAPHIC] [TIFF OMITTED] T8547.055
    
    Mr. Shays. Mr. Burnham.

   STATEMENT OF ROBERT BURNHAM, SECTION CHIEF, FBI DOMESTIC 
          TERRORISM/COUNTER-TERRORISM PLANNING SECTION

    Mr. Burnham. Thank you, Chairman Shays.
    Mr. Shays. You just talk and he'll turn it on as you talk.
    Mr. Burnham. Chairman Shays, Congressman Tierney, it's a 
pleasure to be here. I've submitted a statement outlining 
essentially what the FBI has done in the way of programs and 
initiatives over the last couple of years in helping to prepare 
for terrorist attacks in the domestic preparedness area.
    What I thought I'd do is to go off that a little and just 
to mention some statements that were--or touch upon some 
statements and areas that were discussed earlier today.
    But, first of all, I'd like to talk about the actual threat 
of a WMD. Congressman Shays talked about it before, that it's 
just a matter of time. Currently, the FBI considers the threat 
of a WMD, weapons of mass destruction, terrorist type incident 
to be low at this time. That's not to say that it's not going 
to happen or couldn't happen in the future. The results could 
be catastrophic.
    What that assessment is based on is the fact that--and, 
again, when I'm talking about WMD, I'm talking primarily now 
about chemical or biological. It's not because individuals, 
either domestically or internationally, do not have the 
intention nor the motivation to do so. I think it deals more 
with the capability, with the capability to develop on a mass 
destruction scale, to develop a chemical or biological weapon.
    We do know from an intelligence standpoint that both 
domestically and internationally individuals are attempting to 
develop that. So it is a matter of time. And our preparedness 
efforts should continue on into the future.
    Mention was also made this morning about Nunn, Luger, 
Domenici and the money being spent in the 120 cities which were 
expanded to 157 cities in domestic preparedness training.
    Aside from that, the FBI has participated in that over the 
last several years. But in our domestic preparedness efforts, 
we have not limited ourselves to the Nunn, Luger, Domenici 
cities. All of our field offices are actively involved where 
they were part of the original 120 or 150 cities.
    What we've done in our Domestic Preparedness Program is 
gone out, designed WMD coordinators in each of our field 
offices. In addition, we have what we call a key asset 
infrastructure. And mention was made earlier about a nuclear 
plant.
    What that has involved is having each of our field offices 
going out to major chemical plants, to nuclear facility, 
getting the floor plans, developing response in the event of a 
potential terrorist attack. And, again, that's been ongoing for 
the last couple of years.
    In addition, we've also actively participated--and this has 
been open to everyone--under Nunn, Luger, Domenici, the Expert 
Assistance Program is open to everyone. And that's the 
Hotline--I indicated that in my statement. The hotline, the 
help line, the Web page, which is available to all first 
responders across the country.
    Mr. Baughman mentioned crisis and consequence management. 
We have worked very closely with FEMA over the last several 
years. And one of the areas that we have--and I briefly talked 
about this on Friday. In the area of crisis and consequence 
management, oftentimes it's very difficult to define where does 
consequence stop, where does crisis start.
    Mr. Baughman and I have talked about this before. 
Oftentimes, as we did on the exercise on Friday, you had both 
crisis and consequence at the same time. In recognition of 
that, what we've done in conjunction with FEMA is the Concept 
of Operations Plan, which we've worked on very hard with FEMA 
over the last couple of years, as well as our other interagency 
partners at the Federal level, it was an operation plan 
developed to implement PDD-39 for a domestic terrorist or WMD 
incident, domestic terrorist type incident.
    What we've done on that is we've worked in the ICS system, 
recognizing that the first responders are going to be State and 
local fire departments, the haz/mat people, in full recognition 
that's part of our concept of operation plan, recognizing that 
when you do have an ICS, the first responders are going to be 
there.
    What the FBI is going to do is going to roll into it and 
basically just work into the incident command structure, a 
unified command, be part of it. The on-scene commander is the 
police department or the fire department. We fully recognize 
that. And at such time as it develops that it may be a 
potential terrorist incident, then, as we did on Friday, it may 
potentially involve into a JOC, but, again, that's not going to 
be in the first 2 to 3 hours.
    So that is ongoing. We fully recognize and utilize the 
incident command structure, as well as it evolves into our 
system.
    In addition, in the area of intelligence, just very 
quickly, one of the things that you would have, was missing on 
Friday, that you would have both before, after and during a 
crisis, you would have intelligence. And that's where we are 
basically the bridge between the intelligence community and the 
first responder and the local law enforcement community.
    We have a number of outlets that we ensure that information 
of a terrorist type does get to the--in the event that it is 
going to impact upon State and local, that it will get there. 
We've got the national threat warning system. We've got Enless, 
which goes out to local law enforcement. We've also got our 
JTTF's, domestic terrorist working groups, a number of mediums 
to ensure that that type of information does get out to the 
locals.
    And, again, during the incident, having been through a 
number of these tabletops, as well as going through some actual 
incidents, you will have intelligence coming in as the incident 
is going on. That will be shared with the Incident Command 
Structure. In other words, I think some mention was earlier 
made that they weren't able to tell, you know, initially 
whether it was a blister agent or, you know, what it--if it was 
VX gas or whatever. That information that we can get, we ensure 
that it does get to the local first responders.
    We would have the intelligence component. And we are more 
or less the bridge between the first responders and the 
intelligence community.
    That's all I've got right now. I'd be more than happy to 
answer any questions.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Burnham follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.056
    
    [GRAPHIC] [TIFF OMITTED] T8547.057
    
    [GRAPHIC] [TIFF OMITTED] T8547.058
    
    [GRAPHIC] [TIFF OMITTED] T8547.059
    
    [GRAPHIC] [TIFF OMITTED] T8547.060
    
    [GRAPHIC] [TIFF OMITTED] T8547.061
    
    [GRAPHIC] [TIFF OMITTED] T8547.062
    
    [GRAPHIC] [TIFF OMITTED] T8547.063
    
    [GRAPHIC] [TIFF OMITTED] T8547.064
    
    [GRAPHIC] [TIFF OMITTED] T8547.065
    
    Mr. Shays. General Lawlor.

    STATEMENT OF BRIGADIER GENERAL BRUCE LAWLOR, U.S. ARMY 
                           COMMANDER

    General Lawlor. Thank you, Mr. Chairman. Mr. Chairman, 
Congressman Tierney, first of all thank you for inviting me 
here today. Your interest and the interest of your committee in 
this issue has helped us all move this development along as we 
grapple with how to meet this latest threat to our country.
    I'm the Commander of the Joint Task Force Civil Support, a 
recently organized task force under the U.S. Joint Forces 
Command. And it is our mission that, upon request from a lead 
Federal agency and approval by the Secretary of Defense, the 
Joint Task Force Headquarters will deploy to the vicinity of a 
WMD incident and provide command and control for all Department 
of Defense forces that are part of the response effort in 
support of the lead Federal agency with a mission to save 
lives, prevent injury and establish critical life support.
    Mr. Shays. General, before you continue, I just would love 
to----
    General Lawlor. Yes, sir.
    Mr. Shays [continuing]. Put it in perspective. Do the RAID 
teams come under your jurisdiction? Are they totally separate? 
Are they a part, not a part? Just kind of give me a sense of 
your responsibility to help me when I hear your testimony.
    General Lawlor. Sir, the RAID teams are--like all National 
Guard Units, they have a dual mission, a Federal mission and a 
State mission. They are primarily resting in a State mission 
status and would fall under the control of the Governor and the 
State Adjutant General.
    If we were to deploy to an incident site, it is the desire 
of the Commander in Chief of the Joint Forces Command, Admiral 
Gayman, that the CST teams would not be Federalized, so that 
they would remain under State control to the maximum extent 
possible.
    However, if there was a need for additional teams at the 
site, which there might well be, then they could be 
Federalized. And in the event that they were Federalized from 
another State, from another area of the country and brought to 
the site, they would fall under the operational control of the 
Joint Task Force.
    Mr. Shays. So even if the RAID team in the Massachusetts--
in the New England area based in Massachusetts goes into 
another State, they're still going to be under, what, the 
jurisdiction of that State as they come in? Will they become 
under the command of Governor Rowland? How would that work?
    General Lawlor. It would--in the normal course of events, 
Mr. Chairman, the team would be assigned OPConn to the Adjutant 
General of the receiving State.
    Mr. Shays. OK.
    General Lawlor. So that they would fall under the command 
and control of Major General Cugno as the Adjutant General of 
Connecticut.
    Mr. Shays. OK. I understand. Thank you.
    And in terms of--just give me a little bit more background 
as to what your responsibility is. And then--I'm sorry to 
interrupt your testimony.
    General Lawlor. Oh, no, sir. That's fine.
    We are in the process of developing that particular 
relationship. As you know, sir, under Title X, responsibility 
for manning, equipping, training and sustaining the force 
belongs to the services. I am a joint command falling directly 
under Admiral Gayman and reporting directly to the CINC. And in 
that capacity, I don't have responsibility for those four 
functions.
    However, we are actively discussing with Forces Command at 
this point the development of a relationship whereby we would 
play a greater role in the training or, let's say, in the 
readiness of the RAID teams.
    For example, validation of the mission requirements, there 
has to be an entity that defines what the mission of these 
teams should be from the military perspective.
    Mr. Shays. Let's just get the RAID teams out now. When the 
military in general then comes to a site, do I make an 
assumption incorrectly that if there was an incident, say, at 
Millstone 3 that became--was viewed as truly a regional threat 
of gigantic proportions, I make an assumption the military 
would be playing a role. Does that come under--how does that--
tell me how you impact that process.
    General Lawlor. Sir, in that event, the State would, 
through the Federal Emergency Management Agency, request 
assistance from the President. A declaration would be issued. 
And FEMA would then establish its response mechanisms under the 
Federal response plan.
    If there was a need for DOD assistance, there would be a 
request made to the Secretary of Defense. He would task the 
Commander in Chief of Joint Forces, U.S. Joint Forces Commander 
to respond. He, in turn, would task me to be the operational 
command on the ground. And it would be my responsibility to 
deploy to the site and be prepared to receive additional 
Federal Department of Defense forces and provide command and 
control of those forces in support of the request that we would 
anticipate would be made from FEMA through their normal Federal 
response plan process.
    Mr. Shays. Fine. Why don't you go back to your testimony 
now? Thank you.
    General Lawlor. Sir, what I wanted to say was that 
Secretary Cohen has enunciated five core principles that govern 
the operations of the JTF. The first of those is that we are 
always in support of the lead Federal agency. We are not in 
command and control of an incident site. We expect that that 
Federal agency in almost all cases will be the Federal 
Emergency Management Agency. And we are structuring ourselves 
to support that agency in all possible ways.
    Second is that there is within the department a close 
civilian oversight of all our activities both through a 
shortened chain of command--I report directly to the CINC and 
the CINC, of course, reports directly to Secretary Cohen--and, 
also, the creation within the department of a special office, 
the Assistant to the Secretary of Defense for Civil Support, 
headed by Ms. Pam Berkowski, who provides day-to-day civilian 
oversight of all we do.
    Third is that DOD continues its--the Department of Defense 
continues its focus on the war fight and that the units exist 
to fight and win the Nation's war. What we are doing is 
bringing skills that are already inherent in military units to 
the assistance of local responders through the Federal 
Emergency Management Agency, if requested.
    Fourth is that there is an important role for the Reserve 
components to play in response to a weapons of mass destruction 
incident. One only need look at the dispersion of Reserve 
component units throughout the United States, both National 
Guard and Federal Reserve Forces, to see that these forces are 
dispersed throughout all of our communities and that we are 
working very hard within the Joint Task Force to devise 
operational concepts that will enable to bring those forces to 
the forefront as quickly as possible.
    And last, sir, we are specifically charged and do take very 
seriously that whenever we deploy, one of our paramount 
concerns is for the constitutional rights and individual 
liberties of all Americans. And we believe very strongly that 
when we leave the area of an incident site, if those liberties 
are not as secure as we entered it, that we have not done our 
job. Those are Secretary Cohen's charge.
    I would ask that we understand and recognize the unique 
role of the States in managing the response to a consequence--
or an incident of this size. And we are existing to support 
those requirements when they are approved by the Federal 
Emergency Management Agency.
    Sir, that's all I have. And I'd be happy to answer any 
questions you may have.
    Mr. Shays. Thank you, General. Sorry I interrupted you. But 
it was very interesting. Thank you.
    [The prepared statement of General Lawlor follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.066
    
    [GRAPHIC] [TIFF OMITTED] T8547.067
    
    [GRAPHIC] [TIFF OMITTED] T8547.068
    
    [GRAPHIC] [TIFF OMITTED] T8547.069
    
    [GRAPHIC] [TIFF OMITTED] T8547.070
    
    [GRAPHIC] [TIFF OMITTED] T8547.071
    
    [GRAPHIC] [TIFF OMITTED] T8547.072
    
    [GRAPHIC] [TIFF OMITTED] T8547.073
    
    Mr. Shays. Mr. Moore.

   STATEMENT OF GARY MOORE, DIRECTOR, DIVISION OF EMERGENCY 
                    READINESS AND OPERATIONS

    Mr. Moore. Mr. Chairman and members of the committee, thank 
you for inviting me here today to discuss the activities of the 
Department of Health and Human Services in responding to 
terrorist acts and other disasters. I'm Gary Moore. I'm the 
Director of the Operations and Readiness in the Office of 
Emergency Preparedness. I'm also the Acting Deputy Director at 
this time.
    I have submitted testimony. And with your permission, I 
would like to have it entered into the record. Today I would 
just like to summarize some of those remarks.
    Local responders, fire and rescue, police, paramedics and 
emergency room medical staff, will always be the first to 
respond to a disaster or terrorist act in their cities. This is 
why local capability and capacity building is absolutely 
critical to reducing preventable injuries and deaths caused by 
terrorist attacks.
    DHHS is the primary agency that provides the health and 
medical response under FEMA's Federal response plan. We also 
manage the national disaster medical system. NDMS is a 
partnership between DHHS, DOD, FEMA, the Department of Veterans 
Affairs and 7,000 private citizens across the country who 
volunteer their time and expertise as members of the response 
teams in order to provide medical and support care to disaster 
victims in more than 2,000 participating non-Federal hospitals.
    Our primary response capability is organizing teams such as 
Disaster Medical Assistance Teams, specialty medical teams such 
as burn, pediatric and disaster/mortuary teams. Our 27 Level 1 
DMAT's can be Federalized and ready to deploy within hours and 
can be self-sufficient on the scene for 72 hours. This means 
that they carry their own water, portable generators, 
pharmaceuticals and medical supplies, cots, tents, 
communications and other mission-essential equipment.
    Our mortuary teams can assist local medical examiner's 
offices during disasters or in the aftermath of an airline or 
other transportation accident when called in by the National 
Transportation Safety Board.
    Since October 1999, OEP has deployed to the Virgin Islands 
and Puerto Rico in the aftermath of Hurricane Lenny and along 
the entire East Coast of the United States following Hurricane 
Floyd.
    Our mortuary teams and management support teams have 
deployed to Rhode Island and California to assist local the 
coroner's offices after airline crashes. We have supported 
local and Federal efforts during special events, such as the 
World Trade Organization meeting in Seattle and the State of 
the Union Address in Washington, DC.
    When there is a natural disaster and the President declares 
an emergency, FEMA will task DHHS to provide critical health 
care, medical support, social services or any public health or 
medical service that may be needed in the affected area.
    OEP, as the Secretary's action agent, will mobilize NDMS, 
the Public Health Service Commissional Corps Readiness Force 
and other Federal agencies such as CDC, the Indian Health 
Service, DOD and VA to assist in providing critical health care 
services.
    During a terrorist event or even when a credible threat has 
been made, the FBI is the lead Federal agency in charge of 
crisis management. DHHS provides technical assistance to the 
FBI during all phases of the threat assessment and will 
frequently station a liaison at FBI's Strategic Operations 
Center.
    If a terrorist event does occur, FEMA becomes the lead 
Federal agency in charge of consequence management, and in a 
natural disaster FEMA would request DHHS to provide necessary 
health, medical and health-related services to the victims.
    OEP's national medical response teams can provide medical 
treatment after a chemical or biological terrorist event. They 
are fully deployable to sites anywhere in the country with a 
cache of specialized pharmaceuticals to treat up to 5,000 
patients. The teams have specialized personal protective 
equipment, detection devices and patient decontamination 
capability.
    We are working on a number of fronts to assist local area 
hospitals and medical practitioners to effectively deal with 
the effects of a terrorist act. In FY-95, DHHS began developing 
the first prototype metropolitan medical response system. These 
systems, which are components of local city systems, would be 
called in to provide triage, medical treatment and patient 
decontamination.
    The city systems that we have been developing would then be 
able to transport clean patients to hospitals or other medical 
facilities for continued care.
    Hospitals are developing procedures to ensure that patients 
coming in would be decontaminated before entering the facility. 
To date, OEP has contracted with 47 of the Nation's largest 
metropolitan areas for MMRS development and will initiate an 
additional 25 contracts this year.
    We are also in the process of renovating the former Noble 
Army Hospital at Fort McClellan, AL to be used to train 
doctors, nurses, paramedics and emergency medical technicians 
to recognize and treat patients with chemical exposures. In 
this way, we can train hospital staff and other medical 
responders from around the country to treat victims of 
terrorism. And this, Mr. Chairman, kind of falls in line as a 
way of helping the first responders in some of the things we've 
heard today.
    The Department of Health and Human Services is committed to 
assuring that our citizens have access to medical care during 
disasters. We are prepared to quickly mobilize the 
professionals required to respond to a disaster anywhere in the 
United States and its territories and assist local medical 
response systems in dealing with extraordinary situations, 
including meeting the unique challenge of responding to the 
health and medical effects of terrorism.
    Mr. Chairman, that concludes my remarks. I'd be pleased to 
answer any questions.
    Mr. Shays. Thank you, Mr. Moore.
    [The prepared statement of Mr. Moore follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.074
    
    [GRAPHIC] [TIFF OMITTED] T8547.075
    
    [GRAPHIC] [TIFF OMITTED] T8547.076
    
    [GRAPHIC] [TIFF OMITTED] T8547.077
    
    [GRAPHIC] [TIFF OMITTED] T8547.078
    
    [GRAPHIC] [TIFF OMITTED] T8547.079
    
    [GRAPHIC] [TIFF OMITTED] T8547.080
    
    Mr. Shays. Mr. Stroech.

  STATEMENT OF KENNETH STROECH, DEPUTY EMERGENCY COORDINATOR, 
   CHEMICAL EMERGENCY PREPAREDNESS & PREVENTION OFFICE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Stroech. Good afternoon, Mr. Chairman, Mr. Tierney. I'm 
Ken Stroech, Deputy Emergency Coordinator for EPA in 
Washington. My office supports the Federal Anti-Terrorism 
Program of helping State and local responders prepare and plan 
for emergencies involving oil and hazardous materials, 
pollutants or contaminants. These include chemical, biological 
and radiological materials that could be components of weapons 
of mass destruction.
    My office is also responsible for Section 112(r) of the 
Risk Management Program of the Clean Air Act and Federal 
implementation of several sections of the Emergency Planning 
and Community Right to Know.
    Within our office we implement the Domestic Emergency 
Response Program. Along with the U.S. Coast Guard, EPA 
implements the national response system, the safety net created 
to back up local and State first responders during hazardous 
materials and oil emergencies. These same individuals are being 
trained under the Federal Domestic Preparedness Program.
    This program dovetails right in with the Federal response 
plan that was mentioned earlier for these kind of events.
    EPA has a long-standing mandated responsibility to prepare 
for and respond to emergencies, including oil, hazardous 
substances, pollutants or contaminants. The President through 
the Presidential Decision Directives also gave EPA 
responsibility for some additional anti-terrorism activities. 
EPA assists the FBI in determining what sort of hazardous 
substances may be or have been released in a terrorist 
incident. And following an incident, EPA can assist with 
environmental monitoring, sampling, decontamination efforts and 
long-term site cleanup.
    EPA is currently focuses its efforts internally in five key 
areas; health and safety training for its responders, program 
coordination with other Federal, State and local partners, 
preparedness and pre-deployment of EPA assets for special 
events, State, local and Federal training and exercises and 
procurement and maintenance of analytical equipment for WMD 
consequences management.
    Since 1986, Emergency Planning and Community Right to Know 
Act has required every community to develop an emergency plan 
that prepares for accidental releases of extremely hazardous 
substances and, should one occur, makes provisions for rapid 
responses to protect the community.
    These existing plans which are developed by Local Emergency 
Planning Committees, or LEPC's, should be updated to 
incorporate planning response to deliberate chemical releases 
by a terrorist of terrorist group.
    EPA helps provide leadership and assistance to communities 
to ensure that they get the expertise they need to respond to 
deliberate chemical releases. EPA helped to develop the First 
Responder Training Program required under Nunn, Luger, Domenici 
legislation which will be providing training to the 120 largest 
cities in the United States.
    Local Emergency Planning Committees, such as the one in 
Bridgeport, are critical to the success of Community Right to 
Know and play a vital role in helping the public, emergency 
responders and others understand chemical information and what 
to do if a WMD incident were to occur.
    During the last decade, the LEPC's have continued to expand 
their role and take on new responsibility. EPA knows that many 
LEPC's already are incorporating planning and response to 
deliberate chemical releases into their emergency plans. And 
they're expanding the scope to consider those kind of things.
    Because of the public's knowledge about the local role in 
preparing for and responding to emergencies involving chemicals 
and biological agents, they could be a component of a weapon of 
mass destruction. We believe that members of the public seeking 
information about these hazards in their communities would seek 
that information and advice from their LEPC's.
    The national response system is the cornerstone of the 
national effort to prepare for and respond to hazardous 
materials incidents. EPA shares a leadership role with the U.S. 
Coast Guard, with the agency having leadership for the inland 
zones and the Coast Guard in the coastal zones.
    The system is accessed 24 hours a day through the National 
Response Center and is the primary Federal contact point for 
companies to report all accidental oil and chemical, biological 
and etiological discharges that could result from an accidental 
or intentional release.
    The Center contacts various Federal agencies, including 
EPA's Regional Emergency Spill Lines that are on duty to 
activate Federal on-scene coordinators. Federal OSC's evaluate 
the need for Federal response and coordinate Federal efforts 
with the local response community.
    OSC's would be key members of a unified command at the WMD 
incident, also. They can call upon a variety of specialized 
equipment and highly trained personnel, including the 
environmental response team, the radiological emergency 
response team, the U.S. Coast Guard strike teams, the National 
Enforcement Investigation Center and other assets.
    What can we do to improve Federal support? As terrorism 
threats continue to rise in our Nation, EPA recognizes the need 
to expand and strengthen our national response system to assist 
our State and local partners. We should build on this 30-year-
old system that has local, State and Federal components.
    We believe that strengthening our current relationship with 
State and local responders on WMD planning, outreach and 
preparedness issues will translate into a faster, more 
efficient response to terrorist threats and incidents. Enhanced 
training and response capabilities at the State and local level 
are key to improving anti-terrorism response.
    By increasing the number of exercises such as the one that 
took place Friday, we can expect to see fewer injuries and 
deaths among first responders. Such activities need strong 
Federal support and resources.
    Because of existing laws and regulations for response and 
its relations with State and local responders, EPA will 
undoubtedly be called upon to respond to WMD incidents, also. 
However, it is crucial to remember that we may not know in 
advance that what appears to be an accidental hazardous 
material incident may, in fact, be an intentional WMD incident.
    And if EPA's responders are not adequately prepared to 
respond to the growing threat of terrorism, the lives and 
safety of its responders are also at risk.
    To enhance WMD training, equipment and resources, EPA needs 
some additional resources. Over the past several years, EPA has 
allocated resources from within the agency to help meet the 
demands brought on by increased WMD preparedness, particularly 
to assure the safety of its responders.
    In conclusion, EPA continues to work with our Federal, 
State and local partners on cross-cutting issues involving WMD 
to ensure the safety of communities.
    Thank you, Mr. Chairman and the committee, for the 
opportunity to testify. I'd be glad to try to answer any 
questions.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Stroech follows:]

    [GRAPHIC] [TIFF OMITTED] T8547.081
    
    [GRAPHIC] [TIFF OMITTED] T8547.082
    
    [GRAPHIC] [TIFF OMITTED] T8547.083
    
    [GRAPHIC] [TIFF OMITTED] T8547.084
    
    [GRAPHIC] [TIFF OMITTED] T8547.085
    
    [GRAPHIC] [TIFF OMITTED] T8547.086
    
    [GRAPHIC] [TIFF OMITTED] T8547.087
    
    [GRAPHIC] [TIFF OMITTED] T8547.088
    
    [GRAPHIC] [TIFF OMITTED] T8547.089
    
    [GRAPHIC] [TIFF OMITTED] T8547.090
    
    [GRAPHIC] [TIFF OMITTED] T8547.091
    
    [GRAPHIC] [TIFF OMITTED] T8547.092
    
    Mr. Shays. I first would like to thank all of our panelists 
and this panel as well for really trying to stay within the 5-
minute framework because I know there's a lot more that could 
be said.
    I'd like to ask the first question this round and just 
ask--I feel like what I'm hearing is the way the book says we 
should operate and how we should do it. I would love some real 
candid comments about where the biggest challenges are. I mean 
we know how we want it work. But when you've seen this--and, 
for instance, Mr. Baughman, in your statement you talked about 
these exercises when properly planned. So I gather that 
sometimes they're not always properly planned. It was at page 4 
of your statement.
    Mr. Baughman. Right.
    Mr. Shays. So let me just ask you to share with me where 
you think the biggest challenge is.
    Mr. Baughman. I think there are a number of challenges. 
First off, I think one is with the agencies that you see up 
here, minus the FBI, we work time after time after time 
together. We have planning forums both at our regional offices 
and our headquarters offices to better integrate our 
operations.
    Introducing the Bureau has been new to the process. And I 
think that there is some confusion as to the role of the Bureau 
and I heard some of the comments this morning, that the Joint 
Operations Center is a command post. It is not. It's a Joint 
Operations Center so that the normal mechanisms that we 
normally use to interface with State and local government 
continue to operate the way they have. However, that Joint 
Operations Center is there to make sure that we're not stepping 
on another's toes or not duplicating efforts. It's not a 
command relationship.
    When we provide assets to a local jurisdiction, we operate 
under their local incident commander. We are a resource 
provider, just like the State of Connecticut said that we were.
    However, what we've found at major operations, like 
Oklahoma City, is in many cases the local jurisdiction is not 
adequately trained to operate in an interagency environment. 
They have a great fire chief down there, great police chief. 
They're not used to working with multiple State agencies and 
multiple Federal agencies on a major incident. So I think that 
there is some additional training in multi-agency incident 
management that is required. And the incident command system 
allows for this. I just think that we need to focus more of our 
training efforts on that particular area.
    Mr. Shays. All right. Thank you.
    Mr. Burnham.
    Mr. Burnham. Yes. I agree with----
    Mr. Shays. Just keeping talking. It will come on.
    Mr. Burnham. I agree with that. I hate to be redundant 
here, but one of the things I did here on Friday, too, was--and 
I think you were there, Congressman Shays, when one of the 
speakers toward the end said he wasn't sure in the first few 
hours what the role of the FBI was. And, again, it goes to what 
Mr. Baughman was just talking about.
    It's the integration of the ICS system into the fact that 
it's not necessarily in the few hours it's not going to be just 
FBI. The incident commander is going to be the police chief, 
the fire, police, the haz/mat. And recognizing that we're not 
in charge at that point. We're not in charge. All we do is 
we're going to roll in. We're going to have a liaison in that 
command post, recognizing that there's no implication of 
Federal jurisdiction yet.
    And I think the more we exercise these, the more we go 
around the country doing these--I was an Assistant Special 
Agent charged in the Memphis office and we did it in both 
Nashville and Memphis. And I think the benefit--and we saw it 
on Friday. The benefit of doing that is when we did have an 
incident, I knew who the chief of police was. I knew who the 
fire department was. I knew who the haz/mat people were. That's 
probably one of the best things that we've done in the last 
years has been doing that.
    But I think getting everyone to recognize that ICS and the 
Federal system can work together--and it is going to work 
together. It isn't a concept of operations plans now. And I can 
get you a copy of the concept of operations plans. But when we 
did those, as Bruce--as Mr. Baughman knows, we went around the 
country and took a lot of input from -.
    Mr. Shays. You were just showing off when you called him 
Bruce just to give me a feeling that you guys really work 
closely together----
    Mr. Baughman. We do.
    Mr. Shays [continuing]. And you're bonded and all that. OK. 
I'm very impressed.
    Mr. Burnham. Can you believe FEMA and the FBI?
    Mr. Shays. OK. Thank you.
    Mr. Burnham. Thank you.
    Mr. Shays. General, I'm seeking now those areas where, you 
know, we want it to work well but we don't see it work as well.
    General Lawlor. I think--I think the biggest issue that I 
see is the whole question of interagency cooperation and how we 
do that. And we're working in a very complex system. When we 
look at the Federal way of doing business, you share power 
vertically between the Federal Government and the State and the 
local governments and also horizontally, at least at the 
Federal level. We are sharing power across multiple agencies in 
responding to this particular kind of incident. And so what--
I'm sorry.
    Mr. Shays. No. No. Continue. I'm sorry.
    General Lawlor. What we--what we encounter is that there 
is--just the process of bringing all of that together into a 
synchronized and unified response is difficult. And it's the 
kind of thing that requires exercises. It requires a lot of 
coordination. And, frankly, the communication piece that has 
grown over the course of the past year I think has been very 
important.
    And I think I can say without fear of contradiction that 
all of us sort of have been on panels before. The same faces 
tend to surface time and again in these things. And I think 
that's good. I think that's very good.
    Mr. Shays. Just--is it easier--I'm not looking for a long 
answer here. But is it easier for there to be greater 
cooperation within the Federal Government as opposed to going 
down the levels? In other words, is there more practice in the 
Federal level, in your judgment?
    General Lawlor. I think it's an education issue, sir. I 
think that within the Federal interagency system we understand 
a little better that we do have to work all of these various 
levers in order to make it work. Whereas, at the State and 
local systems, there might not quite be that familiarity with 
how we do it at the Federal level. So I think it's really an 
issue of education.
    Mr. Shays. Thank you. Thank you, General.
    Mr. Moore, from HHS' perspective, where are the biggest 
challenges? Where does the system not work the way the textbook 
says it should?
    Mr. Moore. Mr. Chairman, I think that where we've run into 
the biggest problems in deploying our teams is the fact that 
there's still a myth there that when the Federal Government 
comes in to an incident, that possibly we are going to take 
over, we're going to be in charge, we're going to run things. 
And through training that we've gone through with FEMA and 
others to try to correct this, we've been able to--not everyone 
in this country, but a lot of places--been able to convince 
them that they've got to be prepared to receive us because we 
work for them. They're the boss. They're the ones that are 
going to be giving us instructions.
    Mr. Shays. So you guys have done sensitivity training on 
how to approach local and State governments?
    Mr. Moore. You bet we have. Well, I was a State employee 
for a number of years before I came here. And I can tell you 
some stories about the Federal Government coming in that we 
used to--I used to see on the other side.
    Mr. Shays. Oh, that's great.
    Mr. Moore. We've been very pro-active in trying to convince 
the folks that we're here to work for them and not to tell them 
what to do. And one of the problems we've had when we go in and 
them not accepting this right off the bat is that they don't 
have an echelon of response for the resources that we bring in 
and we all get together and work it out. But it's getting 
better.
    Mr. Shays. Thank you very much.
    And from DEP's perspec--EPA's perspective?
    Mr. Stroech. Mr. Chairman, I'd say it's a continuing 
education process to, as you heard described, a complex system 
of agencies and plans and whatever. I'm reminded of when the 
earthquake planning process really picked up considerably in 
this country in the late 80's. And the Federal response plan 
then was called the Federal Earthquake Plan. How taking this 12 
or 13 different agencies and trying to put them into one 
umbrella to work together at first it was a little tough going. 
But over a period of years now working together and under that 
Federal system, that umbrella now works.
    I think the new challenges that have been brought on with 
law enforcement agencies working closely with the agencies 
working in consequence management, we're working through those 
kinds of educational processes of what each other do and do 
best and how to bring all these assets together, understanding 
that the locals are in charge. The Federal Government is here 
to support that system.
    I think somewhat resources are also a challenge in some 
areas. There simply probably isn't enough money in the U.S. 
Treasury to put all the equipment and all the training and all 
the exercises in all the potential places in this country that 
a terrorist event could happen. So we have to try make the most 
we can. We have to try to dual-use our resources and continue 
to work at it. It's a very positive attitude, I think, amongst 
all the players.
    Mr. Shays. I'll just make an observation and then I'll turn 
it to Mr. Tierney. It used to be that business, the large 
consumed the small in the private sector. That was the fear. 
And now it's the small--it's the fast beats the slow. And so 
you can have--and so I'm just wondering if there's analogies 
here with who gets there first, who is really there and so on.
    I'm also--I haven't thought about this before. But I wonder 
if there's more empathy and more understanding between a 
Federal/State law enforcement going vertically, whether they--
since they're all in the law enforcement field, whether they 
have this greater sense of ``Well, I know your challenge and 
you know mine'' versus--and the same with Health. I mean I--one 
of the things I'm really struck with in the health area is that 
in this mix probably--I have some sympathy with the view that 
probably the local health departments are not viewed the same 
way in terms of their important role. And I wonder if it's the 
same on the State level and even on the Federal level. And I 
just wonder if there doesn't need to be a little more emphasis 
on this area.
    So, Mr. Tierney, you have the floor.
    Mr. Tierney. Thank you.
    Mr. Moore, you were telling us about the national medical 
response teams. And I think you may have mentioned how many of 
these teams exist. But I don't recall hearing it.
    Mr. Moore. Yes, sir. We have 4NMRTS, 27 Level 1 DMAT teams. 
We have eight Level 2 teams, which our Level 2 teams are used 
to support and augment our Level 1 teams.
    Mr. Tierney. OK. And how long would it take to mobilize the 
team?
    Mr. Moore. It usually takes about 4 hours to get them to a 
location, to be transported. That's the time we can call them 
up and get them out.
    Mr. Tierney. And that's regardless of traffic congestion or 
anything else that----
    Mr. Moore. That's been an average that we've had, about 4 
hours.
    Mr. Tierney. OK. Mr. Burnham, you also mentioned ongoing 
efforts at the FBI to develop assessments of the threats in the 
area that we might face. What methodology do you use for those 
assessments?
    Mr. Burnham. One of the things we've--we just--in fact, 
tomorrow is the first day for a regional meeting. I mentioned 
in my statement that we did take part and put together a threat 
and risk assessment in conjunction with the Office of Emergency 
Management. I'm going to say Florida, California and two other 
States which I can't recall now.
    But the methodologies that we use--in that particular one, 
the threat assessment that was done, it was recognizing this 
would also be used by a lot of non-law enforcement. So we 
basically used a lot--what are identified by numbers. First of 
all, the potential facilities, potential groups, the likelihood 
that these particular groups would take action, recognizing 
that a lot of the particular localities are going to--and, 
again, the whole idea behind it was equipment-driven because 
our threat and risk assessment was mandated by Congress. It was 
rolled into Office of Justice program's national threat 
assessment tool kit.
    So recognizing that there may be a tendency by some 
jurisdictions to puff up a little exactly what the threat 
element was, there was sort of a checks and balances. When it 
will come back to the State level with our WMD coordinators, we 
would look at what they have. But that was just a first step.
    We are looking at--General Accounting Office last fall did 
mention the fact that there should be--it's done 
internationally. But there should be a domestic threat and risk 
assessment for chemical and biological weapons. And recommended 
that the FBI do it.
    We haven't been tasked with it yet. But we fully anticipate 
it. And at that time, we'll develop better methodologies.
    Mr. Tierney. Thank you.
    I really have no other questions. I just want to make the 
comment of thanking all the members of this panel and the 
previous panels.
    And, Mr. Chairman, I want to thank you. Again, this is an 
enlightening hearing. We oftentimes hear testimony that's 
scattered nationwide. I think it had a particularly good focus 
today to bring it in to one locale and to see how it actually 
worked. And Friday's exercise juxtaposed with the questions 
that we had today and the incident we had today were extremely 
helpful. So I thank you, Mr. Chairman, and I thank all of the 
people that testified today.
    Mr. Shays. I thank all of you.
    Is there any comment that you would want to make before 
we--I'm just going to ask the group to come together for about 
5 to 10 minutes just to talk about the RAID team because I want 
to kind of close the loop there.
    But is there any other closing comment you'd want to make?
    OK. Thank you very much.
    Mr. Shays. General, if you didn't mind staying just for the 
RAID team dialog?
    General Lawlor. Yes, sir.
    Mr. Shays. It may be that we don't need your input, but it 
would be nice if you could just stay.
    I would thank you all. And what we'll do is I'll just 
call--anyone else who was going to come--General, anyone you 
want to come with you, I'll swear them in and--good. We'll 
quickly do it.
    We'll identify to the recorder who you are, too, just so--
if you have a card or so on?
    I think we can close the loop pretty quickly.
    Mr. Lawlor has been sworn and General Cugno has been sworn. 
Excuse me. General Lawlor and General Cugno have been sworn in.
    But if you could stand up? And we'll identify you 
afterwards. OK?
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    OK. Would you--the three who have joined this panel, if 
you'd just identify yourselves just so we have it on the 
record?
    Mr. Gibb. Yes. My name is Paul Gibb. I'm a lead planning 
analyst with the State Office of Emergency Management.
    Mr. Shays. Thank you.
    Mr. Wiltse. John Wiltse, director of the Connecticut Office 
of Emergency Management.
    Lieutenant Colonel Daley. Lieutenant Colonel Jay Daley. I'm 
the commander of the First Civil Support Detachment out of 
Natick, MA.
    Mr. Shays. OK. I'm going to just make this comment and then 
just see if you agree. I think the comment that, General Cugno, 
that basically I think I'm hearing you saying is that whatever 
the RAID team does, if they could do it in an hour instead of 4 
hours, there's going to be a big advantage. And----
    General Cugno. That's correct.
    Mr. Shays. And so then I'd just like to know kind of what 
that advantage is. And I realize I'm not having anyone here 
have to advocate that RAID team locally. I just want to 
understand a little more clearly what triggers a RAID team and, 
you know, think of it in those timeframes. OK?
    General Cugno. Yes, sir. I think to address your question, 
I thought there's a couple of ways that we can do it.
    Mr. Shays. Sure.
    General Cugno. One of them is Colonel Daley, as the 
Commander, can talk and clearly define the difference in 
training and qualifications, et cetera. And----
    Mr. Shays. That would be good to do that.
    General Cugno. So we can do that. That's one.
    Second, like any organization that has a State of readiness 
that's waiting to respond, they also have another mission. And 
you've heard a lot about that. And that's to the first 
responders and it's providing training. Many of their 
individuals on his staff are missioned to provide training to 
first responders. So it's not like it's idle time.
    Third, one thing that I want to clear up, earlier we heard 
other labs within the State, this duplication--I use the 
Environmental Protection. They do not have the same capability 
as this lab. And I think that the Colonel also could address 
that.
    And then the response time, I think it would be wise for 
him to also--between the Office of Emergency Management, if you 
have questions and how it relates to them, specifically to the 
exercise, they can address that, either Paul or----
    Mr. Shays. I'll tell you the framework we're working. We 
have 12 minutes and I'm going to hit the gavel and we're going 
to adjourn. So let's go for it.
    General Cugno. I'd like to turn it over to the good 
Colonel.
    Mr. Shays. Thank you very much.
    Lieutenant Colonel Daley. So I guess response first, 
possible protocol for response?
    Mr. Shays. Yes.
    Lieutenant Colonel Daley. Incident occurs, as it did Friday 
in Bridgeport. And based on our relationships with first 
responder in the area or with the State or with the Adjutant 
General of Connecticut, we could be alerted immediately if 
there was any hint of a possible WMD scenario.
    If we were in the unit at that time, which we would have 
been, 10:30 a.m., it would take us all of the drive time to get 
down here to Bridgeport.
    Now, you can factor that against having a team in-state. If 
you had a team that was that much closer versus Natick, MA, 
wherever that team would be located, much quicker. So that may 
clear up the response piece.
    On the technical expertise or the capabilities of the unit, 
not only do we have the ability to do onsite analysis and 
verification of what you're dealing with, but we also have the 
communications equipment that you see to your left which 
provides a capability to the Incident Commander en route from a 
distance or actually at the site. And it has a reach-back 
capability to a consortium of expertise in the Federal 
Government and in other States where information would be 
acquired to verify or to do further analysis on what you might 
be dealing with.
    Mr. Shays. And local police and local fire could use that--
--
    Lieutenant Colonel Daley. Yes, sir. Through our chain of 
command.
    Mr. Shays. Right.
    Lieutenant Colonel Daley. That also has a secure network 
capability. So you can talk in a secret and/or top secret mode 
if you had to, which does not exist in any incident command 
system with the Federal Government. So you would be able to 
acquire information that would not be available, again, en 
route from a distance away or right at the incident site.
    There is other expertise in the unit. We have a medical 
team which can work with the medial system to provide advice on 
patient care and appropriate response beyond just the initial 
portion of the mission. And then also the mobile analytical lab 
which has the capability to do chemical analysis, bio analysis 
and radiological analysis. So confirmatory analysis onsite. So 
you can bring the lab to the site versus what tends to be the 
standard now, take a sample to a location a distance away from 
the incident and do that confirmatory analysis.
    And we have the technical expertise on the team to do that, 
drawn from the Guard. I mean there's a wide range of 
capabilities, personnel capabilities, in the Guard. An analogy 
I used for General Cugno in the other room, Sergeant Kittridge 
who sits in the back of the room, she's our recon NCO in charge 
of our haz/mat team, Senior NCO. She's also a registered nurse.
    We have a nuclear medical science officer who is on the 
team. He's a chemical officer. He's a microbiologist. So we 
have that type of expertise on the team that can provide advice 
and assistance beyond just the haz/mat entry. That's only one 
piece of our mission.
    And as General Cugno alluded to, if we're working with the 
first responders on a day-to-day basis, training with them, 
that's beneficial to them. Because I've heard throughout the 
discussion today the need for more training, the need for more 
up-close expertise working with the communities. That's another 
role as kind of apostolates of the WMD concept that we can 
bring to this picture, not just in the event that a response 
happens.
    I mean I imagine I'll command the unit for 3 or 4 years. I 
hope an event never happens during my command. But I would like 
to be able to prepare the communities, harden the target, so 
that maybe we lessen the possibility of that event.
    Mr. Shays. OK. Thank you.
    General.
    General Cugno. Yes, sir. I'd like to ask General Lawlor for 
some comments on it. General Lawlor was responsible in the DOMS 
office when they stood these up and has a background in 
institution----
    Mr. Shays. OK. That's why we wanted him on the panel. Thank 
you.
    General Lawlor. Mr. Chairman, two things. As you have heard 
today from the first responders, there were two primary 
concerns. One is communications and the other is the ability to 
identify the agent involved.
    When we stood up the CST's, that was our intent was to 
provide those two capabilities at least down to the State 
level, recognizing that perhaps it was prohibitive in terms of 
cost to provide it to everyone.
    These teams are designed to provide those two capabilities, 
communications and identification, detection of the agent. And 
I think it is probably a disservice to them to emphasize the 
time at which they respond to the site because as we look at 
these incidents as they develop, those two capabilities, we 
believe, are going to be required for some period of time at 
the site, not just the first hour, not just the first 4 hours. 
Those capabilities are going to be required for days.
    And let me give you an example, sir. During the course of 
an event as one of these things begins to develop, there will 
be extensive requirements for communications back to the 
experts that Colonel Daley has discussed with you. There will 
be extensive requirements for interoperability to enable the 
various jurisdictions to talk to each other.
    The van over there provides that communications capability. 
And that capability will be on-site 12 hours, 24 hours, 36 
hours into the incident.
    The second thing that we think is very important is that 
while there is clearly an understanding that there needs to be 
early identification of the agent, at one of these incident 
sites we expect that there will be concern about other sites 
within the area. In other words, there will be a release. And 
the one thing that we found from all of the--certainly from the 
Sirin gas incident in Tokyo is what we call the worried well, 
as I'm sure you're familiar. There's not only the worried well, 
there is the whole issue of people calling in and saying, ``Now 
I have something. I'm smelling something in the vicinity of 1st 
and 2nd Streets and we don't know what it is.''
    Mr. Shays. Some could be real and some couldn't. But where 
does the plume go?
    General Lawlor. Where does it go and who has the capability 
to go to that second site and say it is or it isn't?
    Mr. Shays. OK.
    General Lawlor. And that's another capability that these 
teams bring.
    Mr. Tierney. Just going back on a question here, you're 
talking about having one in every State. But that may not 
necessarily be the solution you're looking to. I suspect you're 
looking to have areas covered. And certainly within a State, 
you may not be able to get to another part of your State as 
easily as you can to some place in an adjacent State. So you're 
really looking at trying to map this out so that you have teams 
strategically located so that they can have decent response 
time no matter where they go. Or do you really think that you 
can resolve this just by putting one in each State?
    General Cugno. My opinion is one in-state as a minimum. And 
I think--if there was need to--California has two right now, 
obviously, because of its size. But I think at least one per 
State is necessary.
    It's necessary for another reason. And I think it goes back 
to my testimony saying that the ultimate responsibility lies 
with the Governor. In all of the operations that we've heard 
between incident management and crisis management, clearly the 
responsibility for the actions up front are with the incident 
commander and, as the issue turns to the coordination with the 
law enforcement agencies and crisis management rolls on, all 
the way through that local government, meaning the State, is 
represented there because they have the ability to transition 
and prioritize assets within the State and direct them forward 
to the front.
    For that same reason, you can take the RAID team or the 
support element and you can move that to the front immediately. 
My position, working for the Governor, the Connecticut Guard 
here is a ready, available asset resurged to go forward only 
helps the first responders.
    Mr. Tierney. Thank you.
    General Cugno. Yes, sir.
    Mr. Shays. Do either of you want to just add a point here?
    General Cugno. If you have questions, they were here for--
--
    Mr. Shays. OK. Fine. OK.
    I think we've, you know, closed the loop on that. I think 
it's--obviously, when you drive from New York to Buffalo, I 
think it's 450 miles. There's logic that New York would need 
more than one. But at a minimum, I would agree with your point 
that each State----
    General Cugno. Yes, sir.
    Mr. Shays. I thank all of you and appreciate your comments. 
And I learned a heck of a lot. Very valuable.
    And I would--before concluding, I would just like to 
thank--I'd like to sound our--sound? I'd like to thank our 
sound system person, Joe Pascarella--is that----
    Mr. Pascarelli. Pascarelli.
    Mr. Shays. Pascarelli. And H.B. Group, New Haven. You've 
done an excellent job.
    In this modern day and age, the thing we seem to have the 
most trouble with is our sound equipment. And it worked 
beautifully today.
    And our recorder, Mr. Ross, Roderic Ross, Post Reporting 
Service. Thank you very much.
    And the Armory staff generally. Your people here have done 
a wonderful job.
    And I'd like to thank my staff, Karen Churest and also 
Larry Halloran and David Rapallo on our staff in Washington.
    It's been a very interesting hearing. And I'm really happy 
that we had it. Thank you.
    This hearing is adjourned.
    [Whereupon, at 1:28 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8547.093

[GRAPHIC] [TIFF OMITTED] T8547.094

[GRAPHIC] [TIFF OMITTED] T8547.095

[GRAPHIC] [TIFF OMITTED] T8547.096

[GRAPHIC] [TIFF OMITTED] T8547.097

[GRAPHIC] [TIFF OMITTED] T8547.098

[GRAPHIC] [TIFF OMITTED] T8547.099

[GRAPHIC] [TIFF OMITTED] T8547.100


</pre></body></html>
